APPENDIX

1a
APPENDIX A
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
ORACLE USA, INC., a
Colorado corporation; et al.,
PlaintiffsAppellees,
v.

No. 18-16554
D.C. No.CV 1000106LRH
MEMORANDUM*

RIMINI STREET, INC., a Nevada
corporation,
DefendantAppellant.

FILED
AUG 16 2019
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

Appeal from the United States District Court
for the District of Nevada
Larry R. Hicks, District Judge, Presiding
Argued and Submitted July 12, 2019
Portland, Oregon

*

This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.

2a
Before: TASHIMA, GRABER, and OWENS, Circuit
Judges.
Defendant-Appellant Rimini Street, Inc. (“Rimini”) appeals the district court’s order entering a
permanent injunction in favor of, and awarding attorney’s fees to, Plaintiffs-Appellees Oracle USA, Inc.,
Oracle America, Inc., and Oracle International Corp.
(collectively “Oracle”). Rimini contends that the district court erred in entering the injunction, that the
injunction is moot, and that the injunction is overbroad and impermissibly vague. Rimini also contends
that the district court’s fee award violated this court’s
prior mandate and that the district court abused its
discretion in apportioning the award. We have jurisdiction under 28 U.S.C. § 1291, and we affirm except
as to paragraphs nine and thirteen of the injunction,
which we instruct the district court to strike, and also
except as to the words “or access” in paragraphs eight
and twelve of the injunction, which we also instruct
the district court to strike.
1. The injunction is not moot. Voluntary cessation of the challenged conduct does not render a case
moot unless “it can be said with assurance that there
is no reasonable expectation . . . that the alleged violation will recur and interim relief or events have completely and irrevocably eradicated the effects of the alleged violation.” Fikre v. FBI, 904 F.3d 1033, 1037 (9th
Cir. 2018) (quoting County of Los Angeles v. Davis, 440
U.S. 625, 631 (1979)) (internal quotation marks omitted) (alteration in original). Rimini contends that the
injunction is moot only because Rimini has ceased the
challenged conduct, namely, unsanctioned copying of
Oracle’s software. This assertion is insufficient to
meet Rimini’s “heavy burden of persua[ding] the court

3a
that the challenged conduct cannot reasonably be expected to start up again.” Id. (quoting Adarand Constructors, Inc. v. Slater, 528 U.S. 216, 222 (2000)) (internal quotation marks omitted) (alteration in original).
2. The district court did not abuse its discretion
in granting the injunction. See eBay Inc. v. MercExchange, L.L.C., 547 U.S. 388, 391 (2006). The district court appropriately weighed the eBay factors, including permissibly finding that Rimini’s infringing
conduct had a “causal connection” to the irreparable
harm suffered by Oracle. Perfect 10, Inc. v. Google,
Inc., 653 F.3d 976, 982 (9th Cir. 2011). The court
pointed to the fact that Oracle and Rimini were direct
competitors, explained that Rimini was able to gain
increasing market share by offering lower prices for
its service than Oracle offered, and that these lower
prices were possible because Rimini’s infringing conduct saved the company time and money. This conclusion was supported by the record, including Rimini’s own internal e-mails. Accordingly, the district
court did not abuse its discretion in granting the injunction.
Additionally, we note that, as part of its weighing
of the eBay factors, the district court stated that Rimini had “conscious disregard” for Oracle’s software
copyrights. Rimini argues that this contradicted the
jury’s finding that Rimini was an “innocent” infringer.
Assuming, without deciding, that the district court violated the Seventh Amendment’s Reexamination
Clause, see Teutscher v. Woodson, 835 F.3d 936, 944
(9th Cir. 2016) (explaining that trial judges must “follow the jury’s implicit or explicit factual determinations in deciding the equitable claims” in order to

4a
avoid contravening the Reexamination Clause) (quoting L.A. Police Protective League v. Gates, 995 F.2d
1469, 1473 (9th Cir. 1993))), any error was harmless.
Rimini’s mental state was not necessary to the district
court’s determination of irreparable injury, nor to the
broader weighing of the eBay factors. The district
court’s decision would stand precisely the same without this statement. Nor did Oracle waive the issue of
harmlessness, as Rimini addressed the issue in its
opening brief.
3. Rimini also contends that the injunction is
overbroad. We agree in two respects. First, restricting “local hosting” for the J.D. Edwards and Siebel licences was error. The injunction enjoins “local hosting” as to PeopleSoft, J.D. Edwards, and Siebel. But
only the PeopleSoft license limits the licensee to using
the licensed Software “at its facilities . . . .” (emphasis
added), which is the basis for the local-hosting requirement. The J.D. Edwards and Siebel licenses do
not contain such a limitation. See Oracle USA, Inc. v.
Rimini Street, Inc., 879 F.3d 948, 959 (9th Cir. 2018)
(“The PeopleSoft license is similar to its J.D. Edwards
and Siebel counterparts, but it contains an additional
limitation about ‘[the licensee’s] facilities.’” (alteration
in original)), rev’d in other part, 139 S. Ct. 873 (2019).
Accordingly, it was error for the district court to enjoin
“local hosting” for the J.D. Edwards and Siebel licences, and we instruct the district court to strike paragraphs nine and thirteen of the injunction.
Second, the injunction’s prohibition on “access[ing]” source code is overbroad. “Accessing” a copyrighted work is not an infringing activity under the
Copyright Act. See 17 U.S.C. § 106 (2002). Even if the
prohibition on access is meant to prevent copying, it is
unnecessary, as copying is separately prohibited by

5a
the injunction. See Columbia Pictures Indus., Inc. v.
Fung, 710 F.3d 1020, 1049 (9th Cir. 2013) (“[I]njunctive relief should be no more burdensome to the defendant than necessary to provide complete relief to
the plaintiffs before the court.” (internal citations
omitted)). Consequently, we instruct the district court
to strike the words “or access” from paragraphs eight
and twelve of the injunction.
In all other respects, the injunction is not overbroad.
4. The injunction is not impermissibly vague.
The injunction clearly sets out what conduct is restricted, namely that Rimini shall not reproduce, prepare derivative works from, or distribute software except “to support the specific licensee’s own internal
data processing operations.” It is therefore not impermissibly vague.
5. We also affirm the attorneys’ fees award.
First, the prior panel’s mandate in Oracle, 879 F.3d
948, did not require apportionment: the panel reversed and remanded the fee award for “reconsideration in light of Oracle’s more limited success at litigation,” id. at 965, and the district court clearly reconsidered the amount of the award and re-applied the
attorneys’ fees factors. Therefore, the district court did
as instructed by this court.
Second, the district court did not abuse its discretion by not apportioning the fee award. As the prevailing party, Oracle could recover only attorneys’ fees incurred in litigating its copyright claims or “related
claims.” The Traditional Cat Ass’n, Inc. v. Gilbreath,
340 F.3d 829, 833 (9th Cir. 2003). The district court
permissibly concluded that the claims “‘involve[d] a

6a
common core of facts’ [and were] based on ‘related legal theories,’” McCown v. City of Fontana, 565 F.3d
1097, 1103 (9th Cir. 2009) (quoting Hensley v. Eckerhart, 461 U.S. 424, 453 (1983)), because the “action
was first and foremost a copyright infringement action.” Accordingly, it was within the district court’s
discretion to determine that apportionment was not
required beyond the twenty percent reduction. See
Creative Computing v. Getloaded.com LLC, 386 F.3d
930, 937 (9th Cir. 2004) (explaining that, even though
the plaintiff lost on its Lanham Act claims, “[a]llocation is not required where there is a ‘common core of
facts’ that requires substantially the same expense on
prevailing and unsuccessful claims”). Accordingly, the
district court did not abuse its discretion in calculating the award.

  
The judgment of the district court is affirmed, including its injunction and award of attorneys’ fees, except that paragraphs nine and thirteen of the injunction, and the words “or access” in paragraphs eight
and twelve, are vacated and ordered stricken. The
parties shall bear their own costs on appeal.
AFFIRMED in part, VACATED in part, and
REMANDED.

7a
APPENDIX B
UNITED STATES DISTRICT COURT
DISTRICT OF NEVADA
ORACLE USA, INC. et al.,

JUDGMENT IN
A CIVIL CASE

Plaintiff,
v.
RIMINI STREET, INC., et al.

Case Number:
2:10-cv-0106LRH-VCF

Defendants.
__ Jury Verdict. This action came before the Court
for a trial by jury. The issues have been tried and
the jury has rendered its verdict.
__ Decision by Court. This action came to trial or
hearing before the Court. The issues have been
tried or heard and a decision has been rendered.
X Decision by Court. This action came for consideration before the Court. The issues have been considered and a decision has been rendered.
IT IS ORDERED AND ADJUDGED that plaintiff’s renewed motion for a permanent injunction (ECF
No. 1117) and renewed motion for attorneys’ fees
(ECF No. 1118) are GRANTED.
IT IS FURTHER ORDERED AND ADJUDGED that an award of attorneys’ fees in favor of
plaintiffs Oracle USA, Inc.; Oracle America, Inc.; and

8a
Oracle International Corporation and against defendants Rimini Street, Inc. in the amount of
$28,502,246.40 is hereby entered.
Date: August 14, 2018

DEBRA K. KEMPI
Clerk

___/s/_K. Walker
Deputy Clerk

9a
APPENDIX C
UNITED STATES DISTRICT COURT
DISTRICT OF NEVADA
***
ORACLE USA, INC., a
Colorado corporation;
ORACLE AMERICA, INC., a
Delaware corporation; and
ORACLE INTERNATIONAL
CORPORATION, a California
corporation,
Plaintiffs,
v.
RIMINI STREET, INC., a
Nevada corporation; SETH
RAVIN, an individual,

Case No. 2:10-cv0106-LRH-(VCF)
PERMANENT
INJUNCTION
AGAINST
DEFENDANT
RIMINI STREET,
INC.
[Entered: August 15,
2018]

Defendants.
This is a permanent injunction order pursuant to
17 U.S.C. § 502(a).
Good cause being shown, the court permanently
enjoins and restrains defendant Rimini Street, Inc.
and its subsidiaries, affiliates, employees, directors,
officers, principals, and agents (collectively “Rimini
Street”) as follows:
1. Rimini Street, Inc. shall provide notice of this
Section 502 order to all subsidiaries, affiliates,
employees, directors, officers, principals, and

10a
agents that may have any involvement whatsoever in reproducing, preparing derivative
works from, or distributing PeopleSoft, J.D. Edwards, Siebel, or Oracle Database software or
documentation.
2. Rimini Street shall not reproduce, prepare derivative works from, or distribute PeopleSoft,
J.D. Edwards, or Siebel software or documentation in any way unless both of the following conditions are met:
a. Rimini Street shall not reproduce, prepare
derivative works from, or distribute PeopleSoft, J.D. Edwards, or Siebel software or
documentation unless solely in connection
with work for a specific customer that holds
a valid, written license agreement for the
particular PeopleSoft, J.D. Edwards, or
Siebel software and documentation authorizing Rimini Street’s specific conduct; and
b. Rimini Street shall not reproduce, prepare
derivative works from, or distribute PeopleSoft, J.D. Edwards, or Siebel software or
documentation unless such conduct is consistent with the remaining terms of this order.
PeopleSoft
3. Rimini Street shall not distribute PeopleSoft
software or documentation or any derivative
works created from or with PeopleSoft software
or documentation;
4. Rimini Street shall not reproduce, prepare derivative works from, or use a specific licensee’s
PeopleSoft software or documentation other

11a
than to support the specific licensee’s own internal data processing operations;
5. Rimini Street shall not reproduce, prepare derivative works from, or use PeopleSoft software
or documentation on, with, or to any computer
systems other than a specific licensee’s own
computer systems;
6. Rimini Street shall not reproduce, prepare derivative works from, or use PeopleSoft software
or documentation on one licensee’s computer
systems to support, troubleshoot, or perform
development or testing for any other licensee,
including, specifically, that Rimini Street shall
not use a specific licensee’s PeopleSoft environment to develop or test software updates or
modifications for the benefit of any other licensee;
J.D. Edwards
7. Rimini Street shall not distribute J.D. Edwards
software or documentation or any derivative
works created from or within J.D. Edwards
software or documentation;
8. Rimini Street shall not copy or access J.D. Edwards software source code to carry out development and testing of software updates;
9. Rimini Street shall not reproduce, prepare derivative works from, or use J.D. Edwards software or documentation on, with, or to any computer systems other than a specific licensee’s
own computer systems, except to create an unmodified copy of a specific licensee’s software
application and documentation for use by that

12a
specific licensee in the event that the production copy of the licensee’s software is corrupted
or lost;
10. Rimini Street shall not reproduce, prepare derivative works from, or use J.D. Edwards software or documentation on one licensee’s computer systems to support, troubleshoot, or perform development or testing for any other licensee, including, specifically, that Rimini Street
shall not use a specific licensee’s J.D. Edwards
environment to develop or test software updates or modifications for the benefit of any
other licensee;
Siebel
11. Rimini Street shall not distribute or prepare
derivative works from Siebel software or documentation;
12. Rimini Street shall not copy or access Siebel
software source code to carry out development
and testing of software updates;
13. Rimini Street shall not reproduce, prepare derivative works from, or use Siebel software or
documentation on, with, or to any computer
systems other than a specific licensee’s own
computer systems, except solely to: create an
unmodified copy of a specific licensee’s software
application and documentation for use by that
specific licensee in the event that the production copy of the licensee’s software is corrupted
or lost; for emergency back-up purposes; or, for
disaster recovery purposes and related testing;
14. Rimini Street shall not reproduce, prepare derivative works from, or use Siebel software or

13a
documentation on one licensee’s computer systems to support, troubleshoot, or perform development or testing for any other licensee, including, specifically, that Rimini Street shall not
use a specific licensee’s Siebel environment to
develop or test software updates or modifications for the benefit of any other licensee;
Oracle Database
15. Rimini Street shall not reproduce, prepare derivative works from, or distribute Oracle Database
software.
IT IS SO ORDERED.
DATED this 15th day of August, 2018.
_/s/ Larry R. Hicks___________________
LARRY R. HICKS
UNITED STATES DISTRICT JUDGE

14a
APPENDIX D
UNITED STATES DISTRICT COURT
DISTRICT OF NEVADA
***
ORACLE USA, INC., a
Colorado corporation;
ORACLE AMERICA, INC., a
Delaware corporation; and
ORACLE INTERNATIONAL
CORPORATION, a California
corporation,
Plaintiffs,
v.

Case No. 2:10-cv0106-LRH-(VCF)
ORDER
[Entered: August
14, 2018]

RIMINI STREET, INC., a
Nevada corporation; SETH
RAVIN, an individual,
Defendants.
Before the court are plaintiffs Oracle USA, Inc.;
Oracle America, Inc.; and Oracle International Corporation’s (collectively “Oracle”) renewed motion for a
permanent injunction (ECF No. 1117) and renewed
motion for attorneys’ fees (ECF No. 1118). Defendants
Rimini Street, Inc. (“Rimini Street”) and Seth Ravin
(“Ravin”) filed oppositions to the renewed motions
(ECF Nos. 1130, 1145) to which Oracle replied (ECF
Nos. 1139, 1152). A hearing on Oracle’s renewed motions was held by the court on Monday, July 23, 2018.

15a
I. Facts and Procedural History
This action has an extensive eight-year history. In
brief, and relevant to the renewed motions, Oracle develops, manufactures, and licenses computer software. Oracle also provides after-license software support services to customers who license its copyrighted
software. Defendant Rimini Street is a company that
provides similar after-license software support services to customers licensing Oracle’s copyrighted software and competes directly with Oracle to provide
these services. Defendant Ravin is the owner and
CEO of Rimini Street.
On January 25, 2010, Oracle filed a complaint for
copyright infringement against defendants alleging
that beginning in 2006, Rimini Street copied several
of Oracle’s copyright-protected software programs –
including Oracle’s copyrighted PeopleSoft, J.D. Edwards, and Siebel-branded Enterprise Software products – onto its own computer systems in order to provide after-license software support services to customers who licensed the copyrighted software programs.
ECF No. 1. In June 2011, Oracle filed a second
amended complaint alleging thirteen causes of action
against defendants: (1) copyright infringement; (2) violation of the Federal Computer Fraud and Abuse Act
(“CFAA”), 18 U.S.C. § 1030(a); (3) violation of the California Computer Data Access and Fraud Act
(“CDAFA”), Cal. Penal Code § 502; (4) violation of the
Nevada Computer Crimes Law (“NCCL”), NRS §
205.4765; (5) breach of contract; (6) inducement of
breach of contract; (7) intentional interference with
prospective economic advantage; (8) negligent interference with prospective economic advantage; (9) unfair competition; (10) trespass to chattels; (11) unjust

16a
enrichment; (12) unfair practices; and (13) an accounting. ECF No. 146.
A jury trial was held on Oracle’s claims for copyright infringement and violation of the California and
Nevada computer access statutes from September 14
through October 13, 2015. On October 13, 2015, the
jury returned its verdict and found that defendant Rimini Street engaged in copyright infringement on
ninety-three of Oracle’s copyrighted PeopleSoft, J.D.
Edwards, and Siebel-branded Enterprise Software
products. ECF No. 896. The jury also found that both
defendants Rimini Street and Ravin violated the California and Nevada computer access statutes. Id. Ultimately, the jury awarded Oracle $35,600,000.00 for
Rimini Street’s copyright infringement and
$14,427,000.00 for defendants’ violation of the state
computer access statutes. Id. After the jury verdict,
Oracle filed a series of post-trial motions including a
motion for a permanent injunction (ECF No. 900), a
motion for prejudgment interest (ECF No. 910), and a
motion for attorneys’ fees (ECF No. 917) which were
all granted by the court on September 21, 2016, after
extensive briefing by the parties and a May 25, 2016
court hearing (ECF No. 1049). Defendants then appealed the jury verdict, along with the court’s findings
and orders, to the Ninth Circuit Court of Appeals. See
ECF No. 1078.
On January 8, 2018, the Ninth Circuit issued its
decision and opinion on defendants’ appeal. Oracle
USA, Inc. v. Rimini Street, Inc., 879 F.3d 948 (9th Cir.
2018). In its decision, the Ninth Circuit affirmed inpart, reversed in-part, vacated in-part, and remanded
in-part the jury’s verdict and the court’s various orders in this action. In particular, the Ninth Circuit af-

17a
firmed in full all of the court’s and jury’s findings related to Oracle’s claim of copyright infringement
against Rimini Street for all ninety-three copyright
registrations at issue in this action. Id. at 953 (“[W]e
affirm the judgment with respect to the copyright infringement claims. We also affirm the remedies with
respect to those claims[.]”). The Ninth Circuit also affirmed the jury’s $35.6 million judgment against Rimini Street for its infringement and the court’s award
of approximately $22.5 million in prejudgment interest against Rimini Street. Id. at 953, 963-964. However, the Ninth Circuit reversed the jury’s verdict
against defendants Rimini Street and Ravin on Oracle’s state law computer access claims (along with the
related California UCL claim) and the jury’s $14.4
million associated judgment on those claims. Id. at
953, 963. In light of its reversal on the state law
claims, the Ninth Circuit vacated both the court’s issuance of a permanent injunction and the court’s
award of attorneys’ fees and remanded both of these
issues for the limited purpose of determining whether
the court would again issue a permanent injunction
and/or an award of attorneys’ fees based solely on Rimini Street’s copyright infringement and without reference to the now reversed state law computer claims.
Id. at 964-65.
In response to the Ninth Circuit’s opinion, Oracle
filed the present renewed motion for a permanent injunction to enjoin and restrain Rimini Street from any
further infringement of Oracle’s software copyrights
(ECF No. 1117)1 and renewed motion for attorneys’

1

Along with its motion, Oracle has filed a proposed permanent
injunction. See ECF No. 1117, Ex. A.

18a
fees in the amount of $28,502,246.20 (ECF No. 1118).
Both motions are addressed below.
II. Renewed Motion for Permanent Injunction
(ECF No. 1117)
A. Effect of the Ninth Circuit Opinion
The parties dispute the breadth and effect of the
Ninth Circuit’s opinion and remand upon the court’s
analysis on the renewed motion for a permanent injunction. See ECF Nos. 1117, 1130. In its renewed motion, Oracle argues that the Ninth Circuit’s remand
on the issue of whether to grant a permanent injunction is limited and in no way undercut the basis for, or
the court’s prior analysis on, issuing a permanent injunction against Rimini Street to enjoin and restrain
future copyright infringement. See ECF No. 1117. Rather, Oracle argues that the Ninth Circuit remand
only requires the court to reevaluate the relevant injunction factors solely under the Copyright Act and
without reference to the now reversed state law computer claims. Id. In opposition, Rimini Street argues
that the Ninth Circuit’s remand constitutes a true reversal and effective disapproval of the permanent injunction that was previously entered by the court and
thus, the opinion precludes the court from entering
any injunction in this case. See ECF No. 1130.
The court has reviewed the parties’ documents,
along with the Ninth Circuit’s opinion, and agrees
with Oracle’s reading of the opinion and the limited
nature of the remand. In its order, the Ninth Circuit
recognized that the court entered a permanent injunction against Rimini Street “based on copyright infringement and . . . based on alleged violations of the
[state computer access statutes].” Id. The Ninth Circuit further recognized that in the court’s order, “the

19a
district court assessed the [relevant] factors by reference to both the copyright and the [state computer access] claims, without considering separately the propriety of issuing an injunction as to the copyright
claims alone.” Id. The Ninth Circuit then concluded
that “[b]ased on the record before us, we do not know
how the district court would weigh the [relevant] factors with respect to the copyright claims alone. We express no view on the propriety or scope of any injunctive relief, which are matters committed to the district
court’s discretion in the first instance.” Id. The court
reads this express direction from the Ninth Circuit to
mean that the court must examine the relevant permanent injunction factors based solely on Rimini
Street’s copyright infringement without including any
findings related to the reversed state law computer access claims. The court does not read any further limitation into its direction from the Ninth Circuit’s opinion, nor does the court find that the remand precludes
the issuance of an injunction in this action. With this
understanding of the Ninth Circuit’s remand, the
court shall evaluate and analyze Oracle’s renewed motion for a permanent injunction.
B. Legal Standard for a Permanent Injunction
The Copyright Act provides that a district court
may enter a permanent injunction “on such terms as
it may deem reasonable to prevent or restrain infringement of a copyright.” 17 U.S.C. § 502(a). “[T]he
decision whether to grant or deny injunctive relief
rests within the equitable discretion” of the district
court. eBay, Inc. v. MercExchange, LLC, 547 U.S. 388,
394 (2006). Such discretion should be “exercised consistent with traditional principles of equity.” Id. In determining whether to issue a permanent injunction in

20a
a copyright infringement action, a district court evaluates four factors: (1) irreparable harm; (2) the inadequacy of monetary damages for the infringement; (3)
whether the balance of hardships weighs in the copyright holder’s favor; and (4) whether the public interest would be served by a permanent injunction. Id. at
391; see also Flexible Lifeline Sys., Inc. v. Precision
Lift, Inc., 654 F.3d 989, 999 (9th Cir. 2011) (applying
the four-factor test outlined in eBay). Further, a permanent injunction should issue when the intervention
of the court in equity is essential to protect a party’s
rights against injuries that could not otherwise be
remedied. See Weinberger v. Romero-Barcelo, 456 U.S.
305, 312 (1982). The court shall address each eBay factor below.
1. Irreparable Injury
The first factor in a permanent injunction analysis is whether a plaintiff has suffered an irreparable
injury as a result of a defendant’s conduct, or will suffer an irreparable injury absent an injunction. See
American Trucking Ass’ns v. City of Los Angeles, 559
F.3d 1046, 1052 (9th Cir. 2009). As part of a court’s
irreparable injury analysis in a copyright action,
courts regularly examine three main considerations:
(1) direct competition between the parties; (2) loss of
market share due to the infringement; and (3) loss of
customer and business goodwill. See, e.g., Presidio
Components Inc. v. Am. Tech. Ceramics Corp., 702
F.3d 1351, 1362 (Fed. Cir. 2012) (stating that direct
competition in the same market strongly supports the
potential for irreparable harm absent an injunction);
i4i Ltd. P’ship v. Microsoft Corp., 598 F.3d 831, 861
(Fed. Cir. 2010) (finding that harm to a party’s market
share, revenues, and brand recognition is relevant for

21a
determining whether the party has suffered an irreparable injury); Celsis In Vitro, Inc. v. CellzDirect, Inc.,
664 F.3d 922, 930 (Fed. Cir. 2012) (holding that loss
of goodwill, damage to reputation, and loss of business
opportunities are all valid grounds for finding irreparable harm).
Here, the court once again finds that Rimini
Street’s infringement of ninety-three separate copyright registrations over four of Oracle software product lines (Oracle Database, PeopleSoft, J.D. Edwards,
and Siebel-branded Enterprise Software) irreparably
injured Oracle’s business reputation and goodwill.
First, it is undisputed (and has been repeatedly
acknowledged by the parties) that Oracle and Rimini
Street directly compete with each other to provide after-license software support services to customers
that license Oracle’s copyrighted software. Direct
competition between a copyright holder and a proven
copyright infringer has consistently supported the issuance of a permanent injunction. See Presidio Components, Inc., 702 F.3d at 1362.
Second, the evidence in this action established
that Rimini Street’s conscious disregard for Oracle’s
software copyrights enabled Rimini Street to rapidly
build its business from a new and unknown company
in the after-license software support market to a major competitor of Oracle. By offering cut-rate prices on
its own services, generally at a discount of 50% of Oracle’s prices for similar service contracts, Rimini
Street gained increasing market share and growth, including through the length of this litigation. The evidence further establishes that Rimini Street’s business model from 2006, and up until at least the court’s
summary judgment orders in February 2014, was

22a
built entirely on its infringement of Oracle’s copyrighted software. Rimini Street would not have
achieved its current market share and exceptional
revenue growth without its infringing conduct. In fact,
the evidence in this action establishes that Rimini
Street landed clients for its services by telling customers that Oracle’s services were overpriced and could
be offered at the same cut-rate, 50% discount that Rimini Street offered. Rimini Street was able to offer its
after-license software support services at such low
prices because its copyright infringement allowed it to
offer support services without licensing the ninetythree different copyrighted software products from
Oracle or having to expend significant resources in
time and money in developing its own competing software. Further, by purporting to offer vendor-level support at half the price of Oracle support, Rimini Street
created the impression that Oracle was overcharging
for support and eroded the bonds and trust that Oracle has with its customers. Such injuries to a business’
reputation and goodwill have consistently been held
to constitute irreparable harm. See Apple Inc. v. Psystar Corp. (Apple II), 658 F.3d 1150, 1154 (9th Cir.
2011).
Finally, Rimini Street’s claim that it no longer engages in the conduct adjudged by the court and jury to
infringe Oracle’s software copyrights is not a basis to
deny issuance of an injunction. See Metro-GoldwynMayer Studios v. Grokster, Ltd., 518 F. Supp. 2d 1197,
1222 (C.D. Cal. 2007) (stating that “[a] private party’s
discontinuation of unlawful conduct does not make
the dispute moot, however. An injunction remains appropriate to ensure that the misconduct does not recur
as soon as the case ends.”). Therefore, based solely on
Rimini Street’s copyright infringement, the court

23a
finds that this factor again weighs in favor of a permanent injunction.
2. Inadequacy of Monetary Damages
In order to establish that an injunction is warranted, a plaintiff must show that monetary damages
alone are inadequate to fully compensate it for the defendant’s conduct. See eBay, 547 U.S. at 391. Here, the
court finds that monetary damages alone are inadequate to compensate Oracle for the losses suffered as
a result of Rimini Street’s copyright infringement.
First, the court notes that certain harms suffered by
Oracle as a result of Rimini Street’s conduct like lost
market share and erosion of company goodwill are intangible injuries difficult to quantify and compensate
which supports the issuance of a permanent injunction. See Apple II, 658 F.3d at 1154 (stating that injuries to a business’ reputation and company goodwill
are intangible injuries difficult to quantify and compensate).
Second, the copyright infringement damages in
this action were uniquely complex and difficult to determine. Unlike a patent case where a specific number
of infringing products are sold at a specific price, in
this copyright infringement action there was no mathematically efficient way for the jury to measure Oracle’s damages. At trial, the jury was provided with two
separate damage theories, both of which required the
jury to evaluate a substantial amount of evidence and
expert testimony before the jury reached the $35.6
million in copyright infringement damages awarded
in this action. In particular, Oracle’s lost profits theory required the jury to determine the lost profits, if
any, of a multi-billion-dollar company that has a continuously growing business. In contrast, Oracle’s hypothetical license damages theory required the jury to

24a
determine the amount Oracle would have charged and
received from Rimini Street, its competitor in the after-license software support service market, to license
the ninety-three different software products in this action after being presented with ample evidence that
Oracle does not, and would not, license its software to
competitors in the after-license support market. The
difficulty for the jury in quantifying Oracle’s damages
in this action supports the court’s finding that monetary damages alone are insufficient to fairly and fully
compensate Oracle for Rimini Street’s copyright infringement.
Finally, one of the most fundamental rights a copyright holder has is the right to exclude others from
taking and distributing the copyrighted work and this
right has routinely been held difficult to compensate
solely through monetary compensation. See eBay, 547
U.S. at 395 (Roberts, C.J. concurring) (identifying and
explaining the difficulty of protecting a right to exclude through monetary remedies alone). Based on all
the above, the court finds that this factor once again
weighs in favor of an injunction.
3. The Balance of Hardships
A court must weigh and balance the competing effect that granting or withholding an injunction would
have on each party. See Williams v. Bridgeport Music,
Inc., 2015 WL 4479500, at *41 (C.D. Cal. 2015). The
court has reviewed the documents and pleadings on
file in this matter and finds that the balance of hardships weighs in favor of Oracle (as the copyright
holder) and the issuance of a permanent injunction
against Rimini Street for Rimini Street’s infringement
of ninety-three of Oracle’s software copyrights. Generally, the balance of hardships tips in favor of a holder
of a copyright seeking to protect its copyrighted works,

25a
especially when the party to be enjoined does not have
a separate legitimate business purpose for continuing
the conduct or acts deemed to be infringement. Grokster, 518 F. Supp. 2d at 1220. This action is no different. Here, Rimini Street does not have a separate legitimate business purpose for continuation of the infringing acts. Further, there is no evidence that Rimini Street would be harmed by an injunction that enjoins and restrains future copyright infringement or
using the materials gained from its infringement because Rimini Street has repeatedly represented to the
court (including at the July 23, 2018 hearing on the
present motions) that is has changed its business
model and support services away from the conduct ultimately held to constitute copyright infringement. Finally, because Oracle seeks to enjoin only acts that
have already been determined to be unlawful, and
which have been affirmed on appeal, the balance of
hardships weighs in favor of issuing a permanent injunction.
4. The Public Interest
“[T]he touchstone of the public interest factor is
whether an injunction, both in scope and effect,
strikes a workable balance between protecting the
[copyright holder’s] rights and protecting the public
from the injunction’s adverse effects.” i4i, 598 F.3d at
863. Here, the court finds that a permanent injunction
against Rimini Street for the possibility of future copyright infringement is in the public interest. See Apple
Computer, Inc. v. Franklin Computer Corp., 714 F.2d
1240, 1255 (3d Cir. 1983) (“[I]t is virtually axiomatic
that the public interest can only be served by upholding copyright protections and, correspondingly, preventing the misappropriation of the skills, creative en-

26a
ergies, and resources which are invested in the protected work.”). Further, an injunction against future
copyright infringement would not harm the public’s
access to competitive after-license software support
services because Rimini Street has repeatedly represented to the court that its current business model is
not based on its prior infringing conduct. Taking Rimini Street’s statements as true, the public’s access to
competition in the after-license software support service market would not be lost or diminished. Finally,
issuing an injunction in this action “ultimately serves
the purpose of enriching the general public through
access to creative works” by giving Oracle an incentive
to continue to develop software for public use.
Kirtsaeng v. John Wiley & Sons, Inc., 136 S. Ct. 1979,
1986 (2016). Therefore, the court finds that all of the
relevant eBay factors favor issuing a permanent injunction against Rimini Street and the court shall
grant Oracle’s renewed motion accordingly.
III. Renewed Motion for Attorneys’ Fees (ECF
No. 1118)
In the same prior order granting Oracle’s motion
for a permanent injunction against Rimini Street, the
court also granted Oracle’s motion for attorneys’ fees
and awarded Oracle $28,502,246.40 in attorneys’ fees
against defendants Rimini Street and Ravin after a
careful analysis of all relevant factors and a general
reduction of Oracle’s requested fees amount by 20%.
See ECF No. 1049. The Ninth Circuit, “[i]n view of
[their] conclusion that there was no violation of the
state computer laws . . . vacate[d] the fee award and
remand[ed] for reconsideration in light of Oracle’s
more limited success at litigation.” Oracle USA, Inc.,
879 F.3d at 965. Oracle then filed the present renewed

27a
motion for attorneys’ fees requesting the court re-issue its prior fee award of $28,502,246.40 against defendant Rimini Street. ECF No. 1118.
The first issue before the court is whether to reaward attorneys’ fees in this action in light of the
Ninth Circuit’s reversal of the state law claims. Then,
if the court finds that such a fee award is still appropriate under the Copyright Act, the court must determine what amount of fees is reasonable.
A. Determination of Whether to Award Fees
Under Section 505 of the Copyright Act, the court
has discretion to award a prevailing party its reasonable attorneys’ fees. See 17 U.S.C. § 505 (“In any civil
action under this title, the court in its discretion may
. . . award a reasonable attorney’s fee to the prevailing
part[y.]”). The ability to award attorneys’ fees is “[a]n
important remedy under the Copyright Act[.]” Glacier
Films USA, Inc. v. Turchin, ___ F.3d ___, 2018 WL
3542839, at *1 (9th Cir. July 24, 2018).
In order to determine whether an award of attorneys’ fees is warranted under the Copyright Act, a district court examines the nonexclusive factors laid out
by the Supreme Court in Fogerty v. Fantasy, Inc., 510
U.S. 517 (1994), including: “frivolousness, motivation,
objective unreasonableness (both in factual and in the
legal components of the case) and the need in particular circumstances to advance considerations of compensation and deterrence.” 510 U.S. at 534, n. 19; see
also Kirtsaeng, 136 S. Ct. at 1985 (reaffirming the application of the Fogerty factors under the Copyright
Act). The Ninth Circuit also recognizes additional relevant factors that may be considered by a district
court including the overall degree of success obtained

28a
by the prevailing party in the litigation and the purposes of the Copyright Act. Perfect 10, Inc. v. Giganews, Inc., 847 F.3d 657, 675 (9th Cir. 2017); see
also Glacier Films, 2018 WL 3542839, at *3 (reaffirming the Ninth Circuit’s commitment to these additional factors in determining an award of fees under
the Copyright Act).
In applying these factors, a district court is not
bound by any “precise rule,” strict formulation, or
weighing of the relevant factors. Kirtsaeng, 136 S. Ct.
at 1985. Nor must all of the factors be met or addressed in a particular case. Perfect 10, Inc., 847 F.3d
at 675. Rather, a district court enjoys “wide latitude
to award attorney’s fees based on the totality of circumstances in a case” and the court should examine
the relevant factors on “a more particularized, caseby-case assessment.” Kirtsaeng, 136 S. Ct. at 1985.
Further, the Copyright Act does not condition an
award of fees on any particular finding of bad faith or
willfulness by the non-prevailing party. Casella v.
Morris, 820 F.2d 362, 366 (11th Cir. 1987) (“[A] showing of bad faith or frivolity is not a requirement of a
grant of fees.”). The court shall address the most relevant factors in determining whether to re-issue an
award of attorneys’ fee in this particular action below.
1. Degree of Success/Frivolousness
Oracle argues that despite the Ninth Circuit’s reversal on the state law claims, the degree of success it
achieved on its copyright infringement claim establishes that this action was not frivolous and that the
claim warrants reissuing an award of attorneys’ fees
in this case. See ECF No. 1118. The court agrees.
Throughout the history of this litigation, which
was substantially and significantly focused on Rimini

29a
Street’s alleged copyright infringement, Oracle successfully defeated all three of defendants’ counterclaims, including defendants’ counterclaim for copyright misuse. Further, Oracle successfully defeated all
of defendants’ eleven affirmative defenses which were
heavily focused on Oracle’s claim of copyright infringement including affirmative defenses for invalid
copyright registrations, express license, consent of
use, copyright misuse, improper copyright registration, implied license, statute of limitations, and fair
use. Then, at trial, Oracle successfully prevailed on its
claim for copyright infringement as the jury found
that Rimini Street infringed every one of the ninetythree separate copyright registrations at issue in this
action. As a result of Oracle’s success in establishing
Rimini Street’s liability on its copyright infringement
claim, the jury awarded Oracle a $35.6 million judgment against Rimini Street for the infringement.
Then, on appeal, the Ninth Circuit affirmed the
court’s orders and the jury’s verdict on Oracle’s copyright infringement claim in its entirety. Oracle USA,
Inc., 879 F.3d at 953.
The court recognizes that several of Oracle’s
claims were either dismissed or voluntarily withdrawn before trial, and, on appeal, the Ninth Circuit
reversed the jury’s verdict on the state law computer
access claims. However, despite these dismissed,
withdrawn, and reversed claims, the court finds that
Oracle’s overall success in this litigation supports an
award of attorneys’ fees. Most important to the court
in its analysis and decision is that this litigation, at
its heart and core, was a copyright infringement action against Rimini Street regardless of any other
claims pled. First and foremost, Oracle alleged a claim
of ninety-three separate incidents of copyright infringement against Rimini Street. The other pled

30a
claims were secondary to this central issue, and in
some cases, were derivative claims for which Oracle
could not receive any additional monetary relief. Several of these claims were voluntarily withdrawn by
Oracle before trial as to bring central focus to Rimini
Street’s copyright infringement before the jury.
Second, the vast majority of the parties’ pretrial
motions and the court’s related orders were significantly related to the issue of copyright infringement.
For example, several rounds of motions, briefing, and
court orders were devoted to defendants’ counterclaims and affirmative defenses related to Oracle’s
claim of copyright infringement, particularly the
counterclaim and affirmative defense of copyright
misuse, and these were issues absolutely central to
Oracle’s copyright infringement claim. See ECF Nos.
67, 72, 74, 111, 405, 436, 450, 476. Further, an entire
round of summary judgment briefing was solely devoted to the copyright infringement claim. See ECF
Nos. 237, 259, 281, 474. All of this combined briefing,
including submitted evidence, resulted in over two
thousand pages of documents relating to Oracle’s copyright infringement claim. Comparing the parties’
briefing, the copyright infringement issues completely
dwarfed the parties’ briefing on all the other claims
and issues in this action. Further, over two-thirds of
the Ninth Circuit’s opinion is dedicated to the issue of
Oracle’s copyright infringement claim. See Oracle
USA, Inc., 879 F.3d 948.
Third, almost all of the evidence submitted at trial
– documentary exhibits, witness testimony, and expert testimony and reports – was directed at or related
to Oracle’s copyright infringement claim. Disregarding the now reversed state law computer access claims
which were submitted to the jury, the court finds that

31a
almost all of the evidence that was submitted at trial
would have been submitted had these two claims not
been at issue. Then, at trial, the jury awarded Oracle
$35.6 million in copyright infringement damages
based on this evidence after Oracle established Rimini
Street’s liability.
There is no question to the court that a $35.6 million verdict is a substantial success regardless of what
could have been awarded in this case had the jury
agreed with Oracle’s larger damages figure. The
Ninth Circuit recognizes that one of the most important aspects of a party’s degree of success in a copyright infringement action is establishing the defendant’s liability, regardless of the amount of damages
awarded. See Glacier, 2018 WL 3542839, at *4 (citing
Wall Data Inc. v. Los Angeles Cty. Sheriff’s Dep’t, 447
F.3d 769, 787 (9th Cir. 2006)). All of these factors support the court’s finding that this was a copyright infringement action at its core. Thus, the court finds
that this factor weighs in favor of awarding attorneys’
fees.
2. Objective Reasonableness
Another relevant factor in whether to award fees
under the Copyright Act is the objective reasonableness (or unreasonableness) of the losing party’s position during the litigation. Kirtsaeng, 136 S. Ct. at
1983. In particular, the Ninth Circuit accords substantial weight to this factor in reviewing a district
court’s analysis of whether or not to award fees under
the Copyright Act. Glacier, 2018 WL 3542839, at *3
(citing Shame On You Prods., Inc. v. Banks, 893 F.3d
661, 666 (9th Cir. 2018)).

32a
Here, the court finds that -- from the earliest part
of litigation -- defendants’ position that it did not engage in copyright infringement of Oracle’s software
copyrights was not an objectively reasonable position
to take in this litigation. First, as reflected in the
court’s summary judgment orders, Rimini Street’s position was based on a clear misreading of Oracle’s software licensing agreements and a conscious disregard
for the manner that Rimini Street used and housed
the copyrighted software programs on its own servers.
Second, throughout over five and one half years of
this litigation, literally until trial, Rimini Street contended that it had not engaged in any conduct which
could be considered copyright infringement, and, in
particular, did not engage in cross-use of the copyrighted software and only used certain versions of the
copyrighted software for archival purposes and disaster-related testing. In fact, it was on Rimini Street’s
assertions through various affidavits and deposition
testimony submitted at summary judgment that the
court denied portions of Oracle’s motion for summary
judgment on its copyright infringement claim and let
these issues go to trial. However, at trial, defendant
Ravin testified for the first time that Rimini Street did
in fact engage in cross-use and other conduct which
constitutes copyright infringement, but did so innocently and without knowledge that Rimini Street was
acting improperly. This was a direct and major alteration, effectively a sea change, in Rimini Street’s copyright defense throughout the litigation to that time
and needlessly caused extensive investigation, discovery and expense to Oracle. As a result, Oracle was
forced to spend substantially more time and resources
to establish copyright infringement than should have
been necessary.

33a
Finally, the court finds that attorneys’ fees are
warranted because of Rimini Street’s significant litigation misconduct in this action. See Kirtsaeng, 136 S.
Ct. at 1988-89 (recognizing that a court may order attorneys’ fees “because of a party’s litigation misconduct.”). It is undisputed that defendants ignored their
preservation obligations and destroyed evidence prior
to trial, including a key computer directory containing
Oracle software that Rimini Street used for multiple
customers in violation of customer licenses. In fact,
Magistrate Judge Leen found that defendants intentionally deleted the software library well after they
were on notice of potential litigation and were well
aware that the software library was potentially relevant evidence. As a result of their litigation misconduct, defendants were forced to acknowledge the spoliation and destruction of evidence at trial, and the
court even gave an adverse inference jury instruction
on that issue. Further, the Ninth Circuit recognized
Rimini Street’s litigation conduct including the “many
years of complex and contentious litigation” between
the parties and the court’s “understandable frustration with [Rimini Street’s] litigation conduct[.]” Oracle
USA, Inc., 879 F.3d at 964. Moreover, Rimini Street’s
unreasonable litigation tactics in this action were
minimally related to the state law claims reversed by
the Ninth Circuit. Taking all of the above into consideration, the court finds that this factor weighs in favor
of sustaining the attorneys’ fees previously awarded
by the court.
3. The Need to Make Oracle Whole
In its renewed motion, Oracle argues that re-issuing an award of attorneys’ fees is necessary to compensate it for its huge outlay of fees and costs necessarily incurred in enforcing its copyrights. See ECF

34a
No. 1118. The court agrees. In order to prosecute this
action, Oracle expended over $58 million in legal fees
and costs to prove Rimini Street’s unlawful conduct
and obtain a copyright infringement judgment. Without a fee award, the court finds that Oracle’s investment in its intellectual property and its incentive to
create future software would not be appropriately protected or compensated. See McCulloch, 823 F.2d at
323 (“[S]ection 505 is intended in part to encourage
the assertion of colorable copyright claims . . . and to
make the plaintiffs whole.”).
4. Deterrence
Oracle further argues that an award of attorneys’
fees is necessary to deter Rimini Street as a copyright
infringer, as well as other third parties, from engaging
in future infringement. The court agrees. Here, the
court finds that an award of attorneys’ fees is an appropriate remedy to deter defendant Rimini Street
from its pattern of infringing Oracle’s copyrights,
which started when the business began and continued
up until, at the earliest, the court’s orders on summary judgment in 2014. Further, an award of fees is
necessary to deter other third party service providers
from engaging in similar infringing conduct in order
to compete with Oracle for after-license software support services. See McCulloch, 823 F.2d at 323.
5. Purpose of the Copyright Act
The last relevant factor in the court’s analysis of
whether to award attorneys’ fees in this action is
whether an award of attorneys’ fees will further the
purposes of the Copyright Act. See Mattel, Inc. v. MGA
Entm’t, Inc., 705 F.3d 1108, 1111 (9th Cir. 2012) (“The
most important factor in determining whether to
award fees under the Copyright Act, is whether an

35a
award will further the purposes of the Act.”). “The goal
of the Copyright Act is ‘to promote creativity for the
public good.’” Glacier, 2018 WL 3542839, at *6 (quoting Jackson v. Axton, 25 F.3d 884, 890 (9th Cir. 1994));
see also Fogerty, 510 U.S. at 524 (“The primary objective of the Copyright Act is to encourage the production of original literary, artistic, and musical expression for the good of the public.”). The court finds that
awarding attorneys’ fees in this action furthers the
purposes of the Copyright Act as it rewards owners of
intellectual property, like Oracle, for pursuing their
rights under the act and protecting, “encouraging and
rewarding authors’ creations.” Kirtsaeng, 136 S. Ct. at
1986 (“[F]ee awards under § 505 should encourage the
type of lawsuits that promote [the purposes of the
Copyright Act].”). Further, an award of fees is still
warranted despite Rimini Street’s claim that Oracle
was overly aggressive in pursuing this litigation. See
Glacier, 2018 WL 3542839, at *7 (“Indeed, it is difficult to see how pursuing a meritorious infringement
claim ‘less aggressively’ furthers ‘the Copyright Act’s
essential goals.’”). Accordingly, the court shall grant
Oracle’s renewed motion and re-issue an award of attorneys’ fees under the Copyright Act for Rimini
Street’s copyright infringement.
B. Amount of Fees
If, as here, a district court determines that an
award of attorneys’ fees is warranted under the Copyright Act, the court must then determine the amount
of reasonable fees to award the prevailing party. In
determining the reasonableness of an award of attorneys’ fees, a district court considers several non-exclusive factors including: (1) the reputation and skill of
counsel; (2) the financial terms of the client fee ar-

36a
rangement; (3) the nature and extent of work performed and results obtained; and (4) awards in similar
cases. See, e.g., LR 54-16(b)(3); Resurrection Bay Conservation Alliance v. City of Seward Alaska, 640 F.3d
1087, 1095 (9th Cir. 2011). The court previously analyzed these four factors in its prior order and determined that, after a careful analysis of each factor, Oracle was entitled to a fees award of $28,502,246.40.
See ECF No. 1049. The court sees no basis to further
reduce this award in light of the Ninth Circuit opinion
and the court shall re-issue the award of attorneys’
fees against Rimini Street.
First, the fees requested by Oracle in its renewed
motion and previously awarded by the court are reasonable because they are the product of reasonable
rates and a reasonable expenditure of time for the
complexity of the litigation and because this action
was first and foremost a copyright infringement action. See ECF No. 1049. The Ninth Circuit reversal on
the state law claims does not change the court’s analysis on the reasonableness of the rates charged by Oracle’s counsel or the reasonableness of the time spent
on this action. Nor does the reversal on the state law
claims warrant a reduction of the court’s previous
award of $28,502,246.40. As addressed above, this action was first and foremost a copyright infringement
action and the time spent on establishing Rimini
Street’s liability for copyright infringement, especially
in light of Rimini Street’s litigation conduct, is compensable. The court recognizes that Oracle’s attorneys’ fees request includes time billed not only on the
successful copyright infringement claim, but also on
Oracle’s unsuccessful claims. However, the court finds
that these claims involved a “common core of facts” or
“related legal theories” to Oracle’s copyright claims,
and thus, may be included in an award of fees. See

37a
Webb v. Sloan, 330 F.3d 1158, 1168 (9th Cir. 2003)
(holding that the court may award attorneys’ fees on
all claims related to successful copyright claims).
Moreover, even though the Ninth Circuit reversed on
Oracle’s state law computer claims, the time spent on
those claims and the related attorneys’ fees in the litigation are recoverable. See, e.g., The Traditional Cat
Ass’n, Inc. v. Gilbreath, 3450 F.3d 829, 833 (9th Cir.
2003) (holding that where the prevailing party was
not successful on all claims, it may still recover fees
for claims “related” to the successful claims). Therefore, the court finds that, with the previous 20% reduction, Oracle is entitled to the same award of fees
previously issued by the court. Accordingly, the court
shall grant Oracle $28,502,246.40 in attorneys’ fees
against Rimini Street.
IT IS THEREFORE ORDERED that plaintiff’s renewed motion for a permanent injunction (ECF No.
1117) and renewed motion for attorneys’ fees (ECF
No. 1118) are GRANTED.
IT IS FURTHER ORDERED that the clerk of
court shall enter an award of attorneys’ fees in favor
of plaintiffs Oracle USA, Inc.; Oracle America, Inc.;
and Oracle International Corporation and against defendants Rimini Street, Inc. in the amount of
$28,502,246.40.
IT IS SO ORDERED.
DATED this 14th day of August, 2018.
_/s/ Larry R. Hicks ___________________
LARRY R. HICKS
UNITED STATES DISTRICT JUDGE

38a
APPENDIX E
UNITED STATES DISTRICT COURT
DISTRICT OF NEVADA
***
ORACLE USA, INC., a Colorado corporation; ORACLE
AMERICA, INC., a Delaware
corporation; and ORACLE INTERNATIONAL CORPORATION, a California corporation;
Plaintiffs,
v.
RIMINI STREET, INC., a Nevada corporation; and SETH
RAVIN, an individual;
Defendants.
_____________________________

)
)
)
)
)
)
)
)
)
)
)
)
)
)

2:10-CV-00106LRH-PAL
ORDER
[Entered: September 21, 2016]

Before the court are plaintiffs Oracle USA, Inc.;
Oracle America, Inc.; and Oracle International Corporation’s (collectively “Oracle”) motion for a permanent
injunction (ECF No. 900), motion for prejudgment interest (ECF No. 910), and motion for attorneys’ fees
(ECF No. 917). Defendants Rimini Street, Inc. (“Rimini”) and Seth Ravin (“Ravin”) (collectively “defendants”) filed oppositions to the motions (ECF Nos. 905,
958, 998) to which Oracle replied (ECF Nos. 907, 979,
1018).

39a
I.

Facts and Procedural History

This action has an extensive factual and procedural history. In brief, Oracle develops, manufactures, and licenses computer software. Oracle also
provides software support services to customers who
license its software. Defendant Rimini is a company
that provides similar software support services to customers licensing Oracle’s software and competes directly with Oracle to provide these services. Defendant Ravin is the owner and CEO of Rimini.
On January 25, 2010, Oracle filed a complaint for
copyright infringement against defendants alleging
that Rimini copied several of Oracle’s copyright-protected software programs onto Rimini’s own computer
systems in order to provide software support services
to its customers. ECF No. 1. In June 2011, Oracle
filed a second amended complaint alleging thirteen
causes of action against defendants: (1) copyright infringement; (2) violation of the Federal Computer
Fraud and Abuse Act (“CFAA”), 18 U.S.C. § 1030(a);
(3) violation of the California Computer Data Access
and Fraud Act, Cal. Penal Code § 502; (4) violation of
the Nevada Computer Crimes Law, NRS § 205.4765;
(5) breach of contract; (6) inducement of breach of contract; (7) intentional interference with prospective
economic advantage; (8) negligent interference with
prospective economic advantage; (9) unfair competition; (10) trespass to chattels; (11) unjust enrichment;
(12) unfair practices; and (13) accounting. ECF No.
146.
A jury trial was held on Oracle’s claims from September 14 through October 13, 2015. On October 13,
2015, the jury returned its verdict and found that defendant Rimini engaged in copyright infringement of
Oracle’s copyrighted PeopleSoft, J.D. Edwards, and

40a
Siebel-branded Enterprise Software products. ECF
No. 896. The jury also found that both defendants Rimini and Ravin violated the California Computer
Data Access and Fraud Act and the Nevada Computer
Crimes Law. Id. Ultimately, the jury awarded Oracle
$35,600,00.00 against Rimini for copyright infringement and awarded Oracle $14,427,000.00 against
both Rimini and Ravin for violation of the state computer access statutes. Id. After the jury verdict, Oracle
filed the present motions for a permanent injunction,
prejudgment interest, and attorneys’ fees. ECF Nos.
900, 910, 917. The court shall address each post-trial
motion below.
II. Motion for Permanent Injunction (ECF
No. 900)
As part of its motion for a permanent injunction,
Oracle seeks three separate forms of relief. First, Oracle seeks judgment against defendants on its claim
for violation of California’s Unfair Competition Law.
Second, Oracle seeks a permanent injunction to enjoin
and restrain defendants from continued infringement
of Oracle’s copyrighted Enterprise Software products
and from improperly accessing and taking data from
Oracle’s websites and computer systems. Finally, Oracle seeks disposition of all copies of the infringing
software on defendants’ systems.
A. California’s Unfair Competition Law
Oracle seeks judgment against both defendants
Rimini and Ravin on its claim for violation of California’s Unfair Competition Law (“UCL”), Cal. Bus &
Prof. Code § 17200 et seq. California’s UCL prohibits
unlawful, fraudulent, and unfair business practices.
Cel-Tech Comm’s, Inc. v. L.A. Cellular Tel. Co., 20 Cal.
4th 163, 180 (Cal. 1992). There is no right to a jury

41a
trial under the UCL. Rather, a violation of the UCL
occurs as a matter of law when there has been a violation of a predicate act. CAL. BUS & PROF. CODE
§ 17200. A violation of the California Computer Data
Access and Fraud Act is an identified predicate act under the UCL. See Cal-Tech Comm’s, Inc., 20 Cal. 4th
at 180; CAL. BUS & PROF. CODE § 17500 et seq. Because the jury found that defendants violated the
CDAFA, Oracle is also entitled to judgment against
defendants on its UCL claim. Accordingly, the court
shall grant Oracle’s motion and issue judgment in favor of plaintiffs Oracle America, Inc. and Oracle International Corporation on this claim.
B. Permanent Injunction
“[T]he decision whether to grant or deny injunctive relief rests within the equitable discretion” of the
district court. eBay, Inc. v. MercExchange, LLC, 547
U.S. 388, 394 (2006). Such discretion should be “exercised consistent with traditional principles of equity.”
Id. In determining whether to issue a permanent injunction in copyright infringement actions, courts
evaluate four factors: (1) irreparable harm; (2) inadequacy of monetary damages; (3) the balance of hardships; and (4) whether the public interest would be
served by a permanent injunction. Id. at 391; see also
Flexible Lifeline Sys., Inc. v. Precision Lift, Inc., 654
F.3d 989, 999 (9th Cir. 2011) (applying the four-factor
test outlined in eBay). Further, an injunction should
issue when the intervention of the court in equity is
essential to protect a party’s rights against injuries
that could not otherwise be remedied. See Weinberger
v. Romero-Barcelo, 456 U.S. 305, 312 (1982).

42a
1. Availability of a Permanent Injunction
Before addressing whether to award Oracle an injunction in this action, the court must first determine
whether Oracle is entitled to seek a permanent injunction against defendants and under what statute(s), if
any.
Initially, Oracle contends that it may seek a permanent injunction under the Nevada Computer
Crimes Law (“NCCL”). See NRS § 205.513(2) (“An injunction . . . [m]ay be issued without proof of actual
damage sustained by any person.”). However, under
the NCCL, only the Nevada Attorney General or the
appropriate district attorney may seek a permanent
injunction against a party who has violated the act.
NRS § 205.513(1) (stating that only the “Attorney
General or the appropriate district attorney may file
an action in any court of competent jurisdiction to prevent the occurrence or continuance of that act or practice.”). Thus, the plain language of the statute does
not authorize Oracle, a private party, to seek a permanent injunction for a violation of the NCCL.
Next, Oracle seeks a permanent injunction under
the California Computer Data Access and Fraud Act
(“CDAFA”). The CDAFA provides that the owner of a
computer network, like Oracle, may seek injunctive
relief for violations of the statute. CAL. PENAL CODE
§ 502(e)(1) (“In addition to any other civil remedy
available, the owner or lessee of the computer, computer system, computer network, computer program,
or data who suffers damage or loss by reason of a violation of any of the provisions of subdivision (c) may
bring a civil action against the violator for compensatory damages and injunctive relief or other equitable

43a
relief.”). Accordingly, Oracle is entitled to seek a permanent injunction against defendants under the
CDAFA.
Finally, Oracle contends that it is entitled to seek
a permanent injunction under the Copyright Act. The
Copyright Act provides that a district court may enter
an injunction “on such terms as it may deem reasonable to prevent or restrain infringement of a copyright.”
17 U.S.C. § 502(a). Therefore, the court finds that Oracle is entitled to separately seek a permanent injunction against defendant Rimini under the Copyright
Act.1
2. Irreparable Injury
The first factor in a permanent injunction analysis is whether a plaintiff has suffered an irreparable
injury as a result of a defendant’s conduct, or will suffer an irreparable injury absent an injunction. See
American Trucking Ass’ns v. City of Los Angeles, 559
F.3d 1046, 1052 (9th Cir. 2009). As part of a court’s
irreparable injury analysis in a copyright action,
courts regularly examine three factors: (1) direct competition between the parties; (2) loss of market share
due to the infringement; and (3) loss of customer and
business goodwill. See, e.g., Presidio Components Inc.
v. Am. Tech. Ceramics Corp., 702 F.3d 1351, 1362
(Fed. Cir. 2012) (stating that direct competition in the
same market strongly supports the potential for irreparable harm absent an injunction); i4i Ltd. P’ship v.
Microsoft Corp., 598 F.3d 831, 861 (Fed. Cir. 2010)
(finding that harm to a party’s market share, reve-

1

As the jury did not find that defendant Ravin engaged in any
copyright infringement, Oracle may not separately seek a permanent injunction against Ravin pursuant to the Copyright Act.

44a
nues, and brand recognition is relevant for determining whether the party has suffered an irreparable injury); Celsis in Vitro, Inc. v. CellzDirect, Inc., 664 F.3d
922, 930 (Fed. Cir. 2012) (holding that loss of goodwill,
damage to reputation, and loss of business opportunities are all valid grounds for finding irreparable
harm).
Here, the court finds that defendants’ unlawful
actions, to wit copyright infringement and violations
of the state computer access statutes, irreparably injured Oracle’s business reputation and goodwill.
First, it is undisputed that Oracle and Rimini directly
compete with each other to provide software support
services and that Rimini infringed Oracle’s copyrighted works, which supports issuance of a permanent injunction. See Presidio Components, Inc., 702
F.3d at 1362.
Second, the evidence in this action established Rimini’s callous disregard for Oracle’s copyrights and
computer systems when it engaged in the infringing
conduct. For example, the evidence established that
Rimini’s egregious and continued infringement enabled it to rapidly build its business and gain market
share against Oracle in the software support service
market by offering cut-rate prices on its support services for Oracle software, generally at a discount of
50% of Oracle’s prices for similar service contracts. In
fact, Rimini’s business model was built entirely on its
infringement of Oracle’s copyrighted software and its
improper access and downloading of data from Oracle’s website and computer systems, and Rimini would
not have achieved its current market share and business growth without these infringing and illegal actions. Moreover, Rimini landed clients for its services

45a
by telling customers that Oracle’s services were overpriced and could be provided at the same rate Rimini
was offering while still providing Oracle significant
profits, thereby harming Oracle’s business reputation.
Through this misconduct, Rimini gained an improper
advantage that it used to harm Oracle’s business reputation and goodwill in the software service industry.
Such injuries to a business’ reputation and goodwill
have consistently been held to constitute irreparable
harm. See Apple Inc. v. Psystar Corp. (Apple II), 658
F.3d 1150, 1154 (9th Cir. 2011).
Finally, Rimini’s claim that it no longer engages
in the conduct adjudged by the court and jury to infringe Oracle’s copyrights is not a basis to deny issuance of an injunction. See Metro-Goldwyn-Mayer Studios v. Grokster, Ltd., 518 F. Supp. 2d 1197, 1222
(C.D. Cal. 2007) (stating that “[a] private party’s discontinuation of unlawful conduct does not make the
dispute moot, however. An injunction remains appropriate to ensure that the misconduct does not recur as
soon as the case ends.”). Therefore, the court finds
that this factor weighs in favor of a permanent injunction.
3. Inadequacy of Monetary Damages
In order to establish that an injunction is warranted, a plaintiff must show that monetary damages
are inadequate to fully compensate it for the defendant’s conduct. eBay, 547 U.S. at 391. Here, the court
finds that Oracle has established that monetary damages alone are inadequate to compensate it for the
losses suffered because of defendants. First, the court
notes that certain harms suffered by Oracle like lost
market share and company goodwill are intangible injuries difficult to quantify and compensate. See Apple

46a
II, 658 F.3d at 1154 (stating that injuries to a business’ reputation and company goodwill are intangible
injuries difficult to quantify and compensate). Second, the infringement damages in this action were
complex and difficult to determine. Unlike a patent
case where a specific number of infringing products
are sold at a specific price, in this copyright infringement action there was no efficient way to measure the
damages Oracle suffered. In particular, the jury was
provided with two separate damage theories, both of
which required the jury to evaluate a substantial
amount of evidence and expert testimony to reach the
damages awarded in this action. Oracle’s lost profits
theory required the jury to determine the lost profits,
if any, of a multi-billion dollar company that has a continuously growing business. Similarly, Oracle’s hypothetical license damages theory required the jury to
determine the amount Oracle would have charged for
Rimini, its competitor in the software service market,
to license its copyrighted software when presented
with evidence that Oracle does not license its software
to such competitors. The difficulty for the jury in determining damages in this action supports Oracle’s
claim that monetary damages alone are insufficient to
fairly and fully compensate it for defendants’ conduct.
Finally, one of the most fundamental rights the holder
of a copyright has is the right to exclude others, and
this right has routinely been held difficult to compensate solely through monetary compensation. See eBay,
547 U.S. at 395 (Roberts, C.J. concurring) (identifying
and explaining the difficulty of protecting a right to
exclude through monetary remedies alone). Based on
all the above, the court finds that this factor weighs in
favor of an injunction.

47a
4. Balance of Hardships
A court must weigh and balance the competing effect that granting or withholding an injunction would
have on each party. See Williams v. Bridgeport Music,
Inc., 2015 U.S. Dist. LEXIS 97262, at *128 (C.D. Cal.
2015). The court has reviewed the documents and
pleadings on file in this matter and finds that the balance of hardships weighs in favor of an injunction.
Generally, the balance of hardships tips in favor of a
holder of a copyright seeking to protect its copyrighted
works, especially when the party to be enjoined does
not have a separate legitimate business purpose for
continuation of the infringing acts. Grokster, 518 F.
Supp. 2d at 1220. This case is no different. First, Rimini does not have a separate legitimate business
purpose for continuation of the infringing acts. Second, there is no evidence that Rimini would be harmed
by an injunction that enjoins and restrains future copyright infringement or using the materials gained
from its infringement because Rimini has already represented to the court that is has changed its business
model and support services away from the infringing
model in response to the court’s orders on summary
judgment. Finally, because Oracle seeks to enjoin
only acts that have already been determined to be unlawful, the balance of hardships weighs in Oracle’s favor.
5. Public Interest
“[T]he touchstone of the public interest factor is
whether an injunction, both in scope and effect,
strikes a workable balance between protecting the
[copyright holder’s] rights and protecting the public
from the injunction’s adverse effects.” i4i, 598 F.3d at
863.

48a
Here, having reviewed all the documents and
pleadings on file in this matter, the court finds that
an injunction against future copyright infringement
and violations of the computer access statutes are in
the public interest. See Apple Comput. v. Franklin
Comput. Corp., 714 F.2d 1240, 1255 (3d Cir. 1983)
(“[I]t is virtually axiomatic that the public interest can
only be served by upholding copyright protections
and, correspondingly, preventing the misappropriation of the skills, creative energies, and resources
which are invested in the protected work.”). Further,
an injunction against future infringement would not
harm the public interest of access to competitive services because Rimini has repeatedly represented to
the court that its current business model is not based
on its prior infringing conduct. Taking defendants’
statements as true, then Rimini’s ability to compete
against Oracle in the software support service market
would not be lost with an injunction, and thus, the
public would still have access to competition in that
market. Finally, issuing an injunction in this action
“ultimately serves the purpose of enriching the general public through access to creative works” by giving
Oracle an incentive to continue to develop software for
public use. Kirtsaeng v. John Wiley & Sons, Inc., 136
S. Ct. 1979, 1986 (2016). Therefore, the court finds
that the relevant eBay factors favor issuance of a permanent injunction in this action, and the court shall
grant Oracle’s motion accordingly.
C. Disposition of Infringing Articles
In addition to a permanent injunction, Oracle
seeks an order pursuant to the impoundment provisions of the Copyright Act either requiring defendants
to turn over all infringing copies of Oracle’s copyrighted works to a neutral third party to be approved

49a
by the court or destroying all infringing copies outright, thereby preventing defendants from continuing
to leverage the benefits of its infringing actions in its
current business model. See ECF No. 900.
The Copyright Act provides that, “[a]s part of a final judgment or decree, the court may order the destruction or other reasonable disposition of all copies
or phonorecords found to have been made or used in
violation of the copyright owner’s exclusive rights.” 17
U.S.C. § 503(b). A disposition order is “an equitable
remedy issued under the broad powers vested in a
trial judge under 17 U.S.C. § 503(b).” Rogers v. Koons,
960 F.2d 301, 313 (2d Cir. 1992). However, such seizure and impoundment orders are “extraordinary relief” solely within the discretion of the district court.
See Williams, 2015 U.S. Dist. LEXIS 97262, at *131.
Although the Ninth Circuit has not identified appropriate factors to consider in determining whether to
issue impoundment, several courts have applied the
same factors related to issuance of a permanent injunction. See, e.g., Hounddog Prods., L.L.C. v. Empire
Film Grp., Inc., 826 F. Supp. 2d 619, 633 (S.D.N.Y.
2011); Bridgeport Music, Inc. v. Justin Combs Pub.,
507 F.3d 470, 492 (6th Cir. 2007) (affirming a district
court’s order of impoundment upon consideration of
the traditional injunction factors).
With respect to Oracle’s proposed disposition order, the court finds that Oracle is not entitled to a separate order impounding Rimini’s computers and media. Generally, disposition orders should be granted
only where other legal remedies and compensatory
damages do not provide adequate relief. Here, however, Oracle has received monetary compensation for
Rimini’s infringement, and the court has found that a

50a
permanent injunction should be issued against defendants against future conduct. These remedies are
sufficient to protect and compensate Oracle. Further,
the requested outcome of Oracle’s disposition remedy
- preclusion of Rimini from using the infringing works
- is achieved the same with a permanent injunction as
it would be with a disposition order. Thus, having already found that Oracle is entitled to a permanent injunction, the court shall deny Oracle’s request for a
separate disposition order under Section 503(b).
III. Motion for
No. 910)

Prejudgment

Interest

(ECF

Oracle also seeks an award of prejudgment interest on the jury verdict. Prejudgment interest is “statutorily prescribed interest accrued either from the
date of the loss or from the date when the complaint
was filed up to the date the final judgment is entered.
. . . Depending on the statute, it may or may not be an
element of damages.” Prejudgment interest, Black’s
Law Dictionary (10th ed. 2014). The purpose behind
prejudgment interest is “to compensate for the loss of
use of money due as damages from the time the claim
accrues until judgment is entered.” Barnard v. Theobald, 721 F.3d 1069, 1078 (9th Cir. 2013). Whether to
award prejudgment interest under an applicable statute is in “the district court’s sound discretion.” Id.
Initially, Oracle seeks prejudgment interest under
the Copyright Act on the jury’s award of $35.6 million
in damages against defendant Rimini for copyright infringement. See ECF No. 910. An award of prejudgment interest is an available statutory remedy under
the Copyright Act. Polar Bear Prods., Inc. v. Timex
Corp., 384 F.3d 700, 716 (9th Cir. 2004). In the Ninth
Circuit, the starting point for federal prejudgment interest is the post-judgment rate established by 28

51a
U.S.C. § 1961, which is the weekly average of the oneyear constant maturity Treasury yield. See Price v.
Stevedoring Servs. of Am., Inc., 697 F.3d 820, 836-37
(9th Cir. 2012) (en banc), see also Williams, 2015 U.S.
Dist. LEXIS 97262, at *144.
In its motion, Oracle seeks prejudgment interest
at the higher Prime rate rather than the Treasury
rate, contending that the Prime rate is sufficient to
cover inflation over the lengthy infringement and litigation period. See ECF No. 910. Further, Oracle argues that the hypothetical license measure of damages and the equities considered in a copyright case compensation to the plaintiff, deterring infringers,
and preventing unjust enrichment of the defendant weigh strongly in favor of a market-based rate higher
than the Section 1961 Treasury rate. The court disagrees.
“[U]nless the district court concludes that the equities demand a different rate,” an award of prejudgment interest in a copyright infringement case
“should be based on the fifty-two week Treasury bill
rate.” Frank Music Corp. v. Metro-Goldwyn-Mayer,
Inc., 886 F.2d 1545, 1552-53 (9th Cir. 1989). Further,
the Ninth Circuit has repeatedly held that the Section
1961 rate is the appropriate rate of prejudgment interest in an action for copyright infringement. Price,
697 F.3d at 836; Williams, 2015 U.S. Dist. LEXIS
97262, at *144. Here, the court finds that there is no
basis to deviate from the standard Treasury rate to
the Prime rate in this action. That being said, however, the court finds that there is good cause to set the
prejudgment interest rate at the Treasury rate on the
date infringement began, rather than at the time of
judgment. The court makes this finding because of
the nature of the jury’s award of hypothetical license

52a
damages. As the jury awarded damages to Oracle in
an amount it would have received from Rimini for licensing Oracle’s software at the time it began infringing Oracle’s copyrights in late 2006, the court finds
that this is the relevant time period for prejudgment
interest. After this date, when Rimini began infringing Oracle’s copyrights, Oracle lost out on the licensing fees it would have received, absent infringement.
It is not equitable in the court’s view to allow defendants to reap a windfall by the lower interest rates that
are now available simply because they engaged in discovery delays and other litigation tactics (addressed
more thoroughly in Oracle’s motion for attorneys’ fees)
that kept this action in litigation for several years.
Therefore, the court shall grant Oracle’s motion and
set the appropriate rate for prejudgment interest under the Copyright Act as the weekly average one-year
constant maturity Treasury yield at the start of the
infringement.
Second, Oracle also seeks prejudgment interest
under the CDAFA and the NCCL on the jury’s award
of $14.4 million in damages for violation of the state
computer access statutes. Under California law, “a
person who is entitled to recover damages certain, or
capable of being made certain by calculation, and the
right to recover which is vested in the person upon a
particular day, is entitled to also recover interest from
that day.” CAL. CIV. CODE § 3287(a). However, under
California law, only damages that are “certain, or capable of being made certain by calculation” prior to litigation may accrue prejudgment interest. Duale v.
Mercedez-Benz USA, LLC, 148 Cal. App. 4th 718, 72829 (2007). The “test for recovery of prejudgment interest under § 3287(a) is whether [the] defendant actually knows the amount owed or from reasonably

53a
available information could the defendant have computed that amount.” Id. Further, “where the amount
of damage, as opposed to the determination of liability, depends upon a judicial determination based upon
conflicting evidence” Section 3287 “does not authorize
prejudgment interest.” Id. Here, the amount of damages for defendants’ conduct under the CDAFA was
not known or easily calculable prior to trial and required the jury to evaluate and weigh conflicting evidence. Therefore, the court finds that Oracle is not
entitled to prejudgment interest under the CDAFA.
In contrast, in Nevada, prejudgment interest is a
matter of statutory right. Torres v. Goodyear Tire &
Rubber Co., 317 P.3d 828, 830 (Nev. 2014) (“NRS
17.130 . . . provides a statutory right for interest on
judgments.”). Nevada law establishes a prejudgment
interest rate of 2% plus “the prime rate at the largest
bank in Nevada ascertained by the Commissioner of
Financial Institutions on January 1 or July 1, as the
case may be, immediately preceding the date of judgment.” NRS §17.130. Such interest is assessed as simple interest on an annual basis. Torres, 317 P.3d at
830-31. Further, under Nevada law, interest is drawn
“from the time of service of the summons.” Sobel v.
Hertz, 291 F.R.D. 525, 544 (D. Nev. 2013). Here, the
summons in this action was served on January 27,
2010. Thus, the court finds that Oracle is entitled to
prejudgment interest at the Nevada statutory rate for
the $14.4 million in damages for violation of the NCCL
starting January 27, 2010, through the date of judgment.

54a
IV. Motion for Attorneys’ Fees (ECF No. 917)
Oracle’s last motion is its present motion for attorneys’ fees and costs.2 ECF No. 917. In its request,
Oracle is seeking a total of $35,627,807.99 in attorneys’ fees; $4,950,560.70 in taxable costs; and
$17,636,755.68 in non-taxable costs for a total attorneys’ fees and costs award of $58,215,124.37. The first
issue before the court is whether to award attorneys’
fees in this action. Then, if the court finds that such
a fee award is appropriate, the court must determine
the appropriate fees award.
A. Determination of Whether to Award Fees
Under Section 505 of the Copyright Act, the court
has discretion to award a prevailing party costs and
attorneys’ fees. See 17 U.S.C. § 505 (“In any civil action under this title, the court in its discretion may
allow the recovery of full costs by or against any party
. . . . [T]he court may also award a reasonable attorney’s fee to the prevailing part as part of the costs.”).
In order to determine whether an award of attorneys’
fees and non-taxable costs are warranted under the

2

Oracle’s motion is accompanied by a breakdown of time spent
by each contracted law firm, including the individuals who provided the work, what was being worked on, and the amount of
time spent on that item as outlined in four separate declarations
from Attorney Thomas S. Hixson, partner with the law firm Morgan, Lewis and Bockius LLP (ECF No. 918, Hixson Decl.); Attorney Kieran P. Ringgenberg, partner with Boies, Schiller &
Flexner LLP (ECF No. 919, Ringgenberg Decl.); James C. Maroulis, Managing Counsel at Oracle (ECF No. 920, Maroulis Decl.);
and Richard J. Pocker, also a partner with Boies, Schiller &
Flexner LLP (ECF No. 921, Pocker Decl.). Oracle also filed a supplement to its motion for attorneys’ fees and costs updating its
request for fees to include time spent at trial and on post-trial
motions. ECF No. 996.

55a
Copyright Act, courts examine five factors: (1) the degree of success of the prevailing party; (2) the objective
reasonableness of the losing party’s arguments during
litigation; (3) the need to make the prevailing party
whole; (4) deterrence; and (5) the purposes of the Copyright Act. See Kirtsaeng, 136 S. Ct. at 1986; McCulloch v. Albert E. Price, Inc., 823 F.2d 316, 323 (9th Cir.
1987); Jackson v. Axton, 25 F.3d 884, 890 (9th Cir.
1994) (stating the five factor test for attorneys’ fees
under the Copyright Act). Further, the Copyright Act
does not condition an award of fees on a finding of willful infringement. Casella v. Morris, 820 F.2d 362, 366
(11th Cir. 1987) (“[A] showing of bad faith or frivolity
is not a requirement of a grant of fees.”). Rather, a
court must evaluate each of the relevant factors and
make a decision on “a more particularized, case-bycase assessment.” Kirtsaeng, 136 S. Ct. at 1986. Each
factor to determine whether an award of attorneys’
fees is warranted is addressed below.
1. Degree of Success
Oracle argues that the degree of success it
achieved on its claims warrants an award of attorneys’
fees in this case. The court agrees. Oracle successfully defeated all of defendants’ counterclaims, including counterclaims for copyright misuses, early in this
litigation. Then, at trial, Oracle successfully prevailed on its claim for copyright infringement as the
jury found that Rimini infringed every one of the 93
separate copyright registrations at issue. And important to the court is the fact that the trial was a copyright infringement case first and foremost, regardless of all other claims pled. Oracle also prevailed on
its two separate state computer access claims against
both defendants. As a result of its overall success, Or-

56a
acle won a $50 million verdict against defendants - including $35,600,000 for copyright infringement and
$14,427,000 for the state computer access claims which was five times the damages number presented
at trial by defendants’ damages expert. There is no
question to the court that a $50 million verdict is a
substantial success regardless of what could have
been issued in this case. Therefore, this factor weighs
in favor of awarding attorneys’ fees.
2. Objective Reasonableness
The second factor is the objective reasonableness
of the losing party’s position during the litigation.
Kirtsaeng, 136 S. Ct. at 1983. “No matter which side
wins a case, the court must assess whether the other
side’s position was (un)reasonable.” Id. at 1988. However, the objective reasonableness of a losing party’s
position “can be only an important factor in assessing
fee applications - not the controlling one.” Id. at 1988.
“That means in any given case a court may award fees
even though the losing party offered reasonable arguments (or, conversely, deny fees even though the losing party made unreasonable ones).” Id. “For example,
a court may order fee-shifting because of a party’s litigation misconduct, whatever the reasonableness of
his claims or defenses.” Id. at 1988-89 (citing Viva
Video, Inc. v. Cabrera, 9 Fed. Appx. 77, 80 (2nd Cir.
2001)). “Or a court may do so to deter repeated instances of copyright infringement or over aggressive
assertions of copyright claims, again even if the losing
position was reasonable in a particular case.” Id. at
1989 (citing Bridgeport Music, Inc. v. WB Music Corp.,
520 F.3d 588, 593-95 (6th Cir. 2008) (awarding fees
against a copyright holder who filed hundreds of suits
on an overbroad legal theory, including in a subset of
cases in which it was objectively reasonable)).

57a
Here, the court finds that defendants’ litigation
position that it did not engage in copyright infringement was not an objectively reasonable position. Rather, it was based on a clear misreading of Oracle’s
software licensing agreements and a conscious disregard for the manner that Rimini used and housed Oracle’s copyrighted software programs on its own servers. In fact, Rimini’s position was so unreasonable
that the court was able, at summary judgment, to determine that Rimini engaged in massive copyright infringement of Oracle’s copyrighted works, thereby
leaving only a few issues for trial. However, throughout this litigation, including right up until trial, Rimini contended that no copyright infringement ever
occurred because it did not use the copyrighted software in a proscribed manner. Based on defendants’
conduct, the court finds that their position was not
reasonable.
Further, even if defendants’ litigation position
was reasonable, the court finds that attorneys’ fees
are still warranted in this action because of Rimini’s
repeated instances of copyright infringement and its
significant litigation misconduct in this action. See Id.
It is undisputed that defendants ignored their preservation obligations and destroyed evidence prior to
trial, including a key computer directory containing
Oracle software that Rimini used for multiple customers in violation of customer licenses. In fact, Magistrate Judge Leen found that defendants intentionally
deleted the software library well after they were on
notice of potential litigation and were well aware that
the software library was potentially relevant evidence. As a result of their litigation misconduct, defendants were forced to acknowledge the spoliation
and destruction of evidence at trial, and the court even
gave an adverse inference jury instruction about the

58a
issue. Therefore, taking all of the above into consideration, the court finds that this factor weighs in Oracle’s favor.
3. The Need to make Oracle Whole
The third factor in determining whether to award
attorneys’ fees under the Copyright Act is the need to
make the prevailing party whole. See McCulloch, 823
F.2d at 323 (“[S]ection 505 is intended in part to encourage the assertion of colorable copyright claims . .
. and to make the plaintiffs whole.”).
In its motion, Oracle argues that an award of attorneys’ fees is necessary to compensate it for its huge
outlay of fees and costs necessarily incurred in enforcing its copyrights. The court agrees. Oracle has spent
decades developing its copyrighted software only to
have the defendants take that hard work and use it to
their benefit at Oracle’s expense. In order to prosecute this action, Oracle was compelled to spend a significant amount of resources in legal fees and costs
over what was eventually awarded in damages just to
stop defendants’ unlawful conduct. Without a fee
award, the court finds that Oracle’s investment in its
intellectual property and its incentive to create future
software would not be appropriately protected or compensated.
4. Deterrence
The fourth factor in a court’s attorneys’ fee analysis is the need to deter defendants and others from engaging in future infringement. McCulloch, 823 F.2d at
323. Here, the court finds that an award of attorneys’
fees is appropriate to deter defendant Rimini from its
pattern of infringing Oracle’s copyrights, which
started when the business began and continued until
the middle of this litigation. Further, an award of fees

59a
is necessary to deter other third party service providers from engaging in similar infringing conduct in order to compete with Oracle for software support services.
5. Purpose of the Copyright Act
The last factor in a court’s analysis of whether to
an award attorneys’ fees is whether an award will further the purposes of the Copyright Act. See Mattel,
Inc. v. MGA Entm’t, Inc., 705 F.3d 1108, 1111 (9th Cir.
2012) (“The most important factor in determining
whether to award fees under the Copyright Act, is
whether an award will further the purposes of the
Act.”).
The court finds that awarding attorneys’ fees in
this action furthers the purposes of the Copyright Act
as it rewards owners of intellectual property, like Oracle, for pursuing their rights under the act and “encouraging and rewarding authors’ creations.”
Kirtsaeng, 136 S. Ct. at 1986. Further, as discussed
above, an award of attorneys’ fees would deter future
infringement. As such, the court finds that a fee
award is appropriate in this action. See id. (“[F]ee
awards under § 505 should encourage the type of lawsuits that promote [the purposes of the Copyright
Act].”). Accordingly, the court shall grant Oracle’s motion and issue an award of attorneys’ fees under the
Copyright Act.3

3

An award of attorneys’ fees is also available under both the
CDAFA and the NCCL. See CAL. PENAL CODE § 502(e)(2) (“In any
action brought pursuant to this subdivision the court may award
reasonable attorney’s fees.”); NEV. REV. STAT. § 205.4765 (“Any
victim of a crime described in NRS 205.473 to 205.513, inclusive,
may bring a civil action to recover . . . [c]osts and reasonable attorney’s fees incurred in bringing the civil action.”). Insofar as

60a
B. Amount of Fees
If a district court determines that an award of attorneys’ fees is warranted under the Copyright Act (or
other statutory provision), the court must determine
the amount of reasonable fees to award the prevailing
party. In its motion, Oracle argues that the court
should award $35,627,807.99 in attorneys’ fees to
compensate it for the fees it incurred to prosecute this
litigation. In determining the reasonableness of an
award of attorneys’ fees, a district court considers several non-exclusive factors, including: (1) the reputation and skill of counsel; (2) the financial terms of the
client fee arrangement;4 (3) the nature and extent of
work performed and results obtained; and (4) awards
in similar cases. See LR 54-16(b)(3); Resurrection Bay
Conservation All. v. City of Seward Alaska, 640 F. 3d
1087, 1095 (9th Cir. 2011).
Initially, in determining the amount of fees to
award in an action, the court must look to the reasonableness of the rates charged by counsel. Id. Generally, courts determine a reasonable rate for attorneys’
fees based upon “the rates prevailing in that district
for similar services by lawyers of reasonably comparable skill, experience and reputation,” irrespective of
the court has found that Oracle is entitled to attorneys’ fees under the Copyright Act, the court also finds that attorneys’ fees
are warranted under the CDAFA and the NCCL, both of which
allow attorneys’ fees under factors less stringent than the Copyright Act. Further, in contrast to an award of fees under the Copyright Act, for which defendant Ravin was not found liable, the
court finds that an award of fees under both the CDAFA and the
NCCL may be levied against both defendants severally and
equally.
4
Here it is undisputed that Oracle’s fee arrangements with
counsel were hourly rate contracts for work performed in this action and were not contingency fee agreements.

61a
practice area. Prison Legal News v. Schwarzenegger,
608 F.3d 446, 445 (9th Cir. 2010). However, “the district court may, if circumstances warrant, adjust the
lodestar to account for other factors which are not subsumed within it.” Ferland v. Conrad Credit Corp., 224
F.3d 1145, 1149 n.4 (9th Cir. 2001). Those additional
non-exclusive factors include: “(1) the time and labor
required, (2) the novelty and difficulty of the questions
involved, (3) the skill requisite to perform the legal
service properly, (4) the preclusion of other employment by the attorney due to acceptance of the case, (5)
the customary fee, (6) whether the fee is contingent,
(7) time limitations imposed by the client or the circumstances, (8) the amount involved and the results
obtained, (9) the experience, reputation, and ability of
the attorneys, (10) the ‘undesirability’ of the case, (11)
the nature and length of the professional relationship
with the client, and (12) awards in similar cases.”
Ballen v. City of Redmond, 466 F.3d 736, 746 (9th Cir.
2006).
Here, the court finds that the appropriate rates for
counsel in this copyright infringement action are the
actual rates charged by counsel. “Unless counsel is
working outside his or her normal area of practice, evidence that a billing rate was the usual rate the attorney charges for his or her services is evidence that the
rate is comparable to the market rate.” Perfect 10, Inc.
v. Giganews, Inc., No. 11-07098, 2015 WL 1746484, at
*5 (C.D. Cal. Mar. 25, 2015). Further, in an action
under the Copyright Act, an award based on the actual rates charged by counsel has consistently been
held to be reasonable under 17 U.S.C. § 505. See, e.g.,
Kourtis v. Cameron, 358 Fed. App’x. 863, 868 (9th Cir.
2009). This is because in such complex litigation “the
parties can reasonably be expected to retain nation-

62a
ally respected law firms and nationally respected attorneys to pursue their interest in the litigation,”
which will result in “higher lodestars than normally
seen in this district.” Pacquiao v. Mayweather, 2012
WL 4092684, at *2 (D. Nev. 2012) (finding actual rates
paid to California attorneys were “reasonable” and
awarding them). As such, the court finds that the actual rates Oracle paid its attorneys - as established in
the several declarations attached in support of Oracle’s motion - are reasonable rates for this action.
Additionally, the reasonableness of the rates
charged in this action is confirmed by both parties’ decisions to hire national law firms. Their decisions to
hire national firms reflects that the market for legal
services for copyright infringement is a national market and that both parties believed only nationally-renowned firms that charged above market rates for
this district could handle their cases. Therefore, the
court finds that the actual rates charged by counsel in
this action are reasonable rates.
Now, the issue turns to whether the amount of
time billed in this case was reasonable. “[T]o determine whether attorneys for the prevailing party could
have reasonably billed the hours they claim to their
private clients, the district court should begin with the
billing records the prevailing party has submitted.”
Gonzalez v. City of Maywood, 729 F.3d 1196, 1202 (9th
Cir. 2013). In its motion, Oracle argues that its billing
records reflect a reasonable amount of time spent on
this complex litigation, and that it has made conservative adjustments to the hours actually spent by counsel prior to submitting the records.
The court has reviewed Oracle’s billing records
and finds that Oracle has proffered sufficient evidence
for the court to find that most of the time billed by

63a
counsel was reasonable for such complex litigation.
However, as identified in detail by defendants’ objections to evidence submitted in support of Oracle’s motion,5 Oracle’s billing records do include some inconsistencies that violate regular billing practices and
guidelines, such as improper block billing entries,
though the court does not find Oracle’s billing records
nearly as “replete” with errors as defendants contend.
See, e.g., Welch v. Metro. Life Ins. Co., 480 F.3d 942,
948 (9th Cir. 2007) (“[B]lock billing makes it more difficult to determine how much time was spent on particular activities.”). Rather than identify every instance of a mathematical error, block billing, or missing invoice, the court finds that a blanket reduction of
the requested fees in the amount of 20% is appropriate
and consistent with other attorneys’ fee awards under
similar situations. See, e.g., Huhmann v. FedEx Corp.,
2015 WL 6127198, at *8 (S.D. Cal. Oct. 16, 2015) (30%
reduction for improper billing entries); eMove, Inc. v.
SMD Software, Inc., 2012 WL 4856276, at *7 (D. Ariz.
Oct. 11, 2012) (20% reduction for improper billing entries); Gunderson v. Mauna Kea Prop., Inc., 2011 WL
9754085, at *10 (D. Haw. May 9, 2011) (20% reduction
for improper billing entries). Therefore, reducing Oracle’s request for fees by 20%, Oracle is entitled to recover $28,502,246.40 in attorneys’ fees incurred in
this action.6
5
Along with its opposition, defendants filed two separate objections to evidence submitted in support of Oracle’s motion for
attorneys’ fees. ECF Nos. 1005, 1031. Unless and except as specified in the court’s order, the court finds that the evidentiary objections are without merit or go to the weight the court should
give the evidence in determining an award of attorneys’ fees, rather than the admissibility of the evidence before the court.
6
Defendants argue that any fee award must be further reduced because Oracle did not achieve a result greater than their

64a
C. Costs
As part of its motion for attorneys’ fees, Oracle
seeks recovery of both taxable and nontaxable costs.
See ECF No. 917. First, Oracle seeks to recover
$4,950,566.70 in taxable costs, which includes deposition costs, document recovery and storage, and electronic discovery costs. Under Rule 54(d) of the Federal Rules of Civil Procedure, unless a federal statute
or court order provides otherwise, costs should be
awarded to the prevailing party. FED. R. CIV. P.
54(d)(1); see also Ass’n of Mexican-Am. Educators v.
State of California, 231 F.3d 572, 591 (9th Cir. 2000).
The court has reviewed Oracle’s request for taxable
costs and finds that they are recoverable and reasonable. See 28 U.S.C. § 1920. Therefore, the court shall
award Oracle $4,950,566.70 in taxable costs.
Oracle also seeks to recover $17,636,755.68 in
non-taxable costs. Section 505 of the Copyright Act
permits a successful plaintiff to recover all costs incurred in litigation, not just taxable costs authorized
by Rule 54(d) and 28 U.S.C. § 1920. See Twentieth
Century Fox Film Corp. v. Entm’t Distrib., 429 F.3d
869, 885 (9th Cir. 2005). Here, Oracle’s request for
pre-trial Rule 68 offers. See Lantz v. Kreider, 2010 WL 2609080,
at *5 (D. Nev. 2010) (“The proper course of action with respect to
the unaccepted Rule 68 offer of judgment is to preclude plaintiff’s
recovery of that portion of fees and costs related to work on the .
. . claim after the date of the offer.”). The court disagrees. During
the course of this action, Rimini offered Oracle three separate
Rule 68 Offers of Judgment. Defendants contend that the second
Rule 68 offer for $60 million and the third offer for $100 million
are both more favorable than the roughly $52 million obtained at
trial. However, the court finds that these offers, which did not
include any injunctive relief and proposed payment over several
years without interest, were not “more favorable” than the ultimate judgment Oracle obtained in this action.

65a
non-taxable costs includes litigation costs for expert
witness fees, additional e-discovery fees not included
under 28 U.S.C. § 1920, contract attorney services,
jury consulting, and other non-taxable costs. As with
Oracle’s request for attorneys’ fees, defendants object
to several of the billing records and invoices submitted
in support of Oracle’s request.
The court has reviewed the documents and pleadings on file in this matter and finds that Oracle is entitled to an award of non-taxable costs in this action
for the same reasons the court is awarding attorneys’
fees. However, similar to the award of fees, the court
finds that Oracle is entitled to only a reduced amount
of fees for various billing issues, including lost or nonvalidated invoices, vague billing descriptions and
vague work entries. Because of these limited errors,
the court finds that an overall reduction of 25% for almost all non-taxable costs is warranted.
As to defendants’ specific challenge regarding the
expert witness fees of Oracle’s damages expert Elizabeth Dean, the court finds that a reduction of 50% of
her expert fees and costs is appropriate. The court
makes this additional reduction because, prior to trial,
Oracle withdrew Dean’s testimony as to one of its two
damages theories in response to a motion to exclude
by defendants. Thus, at trial, Oracle only presented
half of Dean’s prepared testimony. The court finds
that it would not be fair or equitable to require defendants to pay for expert witness testimony that was
withdrawn in response to their challenge, especially
in light of the fact that by that time in the litigation,
defendants had already deposed Dean, rebutted her
report with an expert of their own, and filed a motion
to exclude her report. Defendants should not bear the

66a
costs of creating the withdrawn portions of Dean’s expert report. Therefore, reducing Oracle’s request for
costs by 50% for the expert witness costs of Elizabeth
Dean ($1,812,066.02 to $906,033.01) and 25% for the
rest of Oracle’s requested non-taxable costs
($15,824,689.66 to $11,868,517.25), the court finds
that Oracle is entitled to recover $12,774,550.26 in additional non-taxable costs for this action. Accordingly,
the court shall grant Oracle’s motion for attorneys’
fees and costs and award Oracle fees and costs in the
amount of $46,227,363.36.
IT IS THEREFORE ORDERED that plaintiffs’
motion for a preliminary injunction (ECF No. 900) is
GRANTED in-part and DENIED in-part in accordance with this order. Plaintiffs shall have ten (10)
days after entry of this order to prepare an appropriate permanent injunction that complies with the
court’s order and submit the same for signature.
IT IS FURTHER ORDERED that the clerk of
court shall enter judgment in favor of plaintiffs Oracle
America, Inc. and Oracle International Corporation
and against defendants Rimini Street, Inc. and Seth
Ravin on plaintiffs’ ninth cause of action for unfair
competition in violation of California’s Unfair Competition Law.
IT IS FURTHER ORDERED that plaintiffs’ motion for prejudgment interest (ECF No. 910) is
GRANTED in-part and DENIED in-part in accordance with this order. Plaintiffs shall have ten (10)
days after entry of this order to prepare an appropriate order setting prejudgment interest that complies
with the court’s order and submit the same for signature.

67a
IT IS FURTHER ORDERED that plaintiffs’ motion for attorneys’ fees and costs (ECF No. 917) is
GRANTED in accordance with this order. The clerk
of court shall enter an award of attorneys’ fees and
costs in favor of plaintiffs Oracle USA, Inc.; Oracle
America, Inc.; and Oracle International Corporation
and against defendants Rimini Street, Inc. and Seth
Ravin in the amount of $46,227,363.36.
IT IS SO ORDERED.
DATED this 21st day of September, 2016.
/s/ Larry R. Hick__________
LARRY R. HICKS
UNITED STATES DISTRICT
JUDGE

68a
APPENDIX F
BOIES, SCHILLER &
FLEXNER LLP
RICHARD J. POCKER
(NV Bar No. 3568)
300 South Fourth Street,
Suite 800
Las Vegas, NV 89101
Telephone: (702) 3827300
Facsimile: (702) 382-2755
rpocker@bsfllp.com
BOIES, SCHILLER &
FLEXNER LLP
WILLIAM ISAACSON
(pro hac vice)
KAREN DUNN (pro hac
vice)
5301 Wisconsin Ave, NW
Washington, DC 20015
Telephone: (202) 2372727
Facsimile: (202) 237-6131
wisaacson@bsfllp.com
kdunn@bsfllp.com

MORGAN, LEWIS &
BOCKIUS LLP
THOMAS S. HIXSON
(pro hac vice)
KRISTEN A. PALUMBO
(pro hac vice)
One Market, Spear
Street Tower
San Francisco, CA 94105
Telephone: 415.442.1000
Facsimile: 415.442.1001
thomas.hixson@morganlewis.com
kristen.palumbo@morganlewis.com

DORIAN DALEY (pro
hac vice)
DEBORAH K. MILLER
(pro hac vice)
JAMES C. MAROULIS
(pro hac vice)
ORACLE CORPORATION
500 Oracle Parkway, M/S
5op7
BOIES, SCHILLER &
Redwood City, CA 94070
FLEXNER LLP
Telephone: 650.506.4846
STEVEN C. HOLTZMAN Facsimile: 650.506.7114
(pro hac vice)
dorian.daley@oracle.com

69a
KIERAN P. RINGGENdeborah.miller@oraBERG (pro hac vice)
cle.com
1999 Harrison Street,
jim.maroulis@oracle.com
Suite 900
Oakland, CA 94612
Telephone: (510) 8741000
Facsimile: (510) 874-1460
sholtzman@bsfllp.com
kringgenberg@bsfllp.com
Attorneys for Plaintiffs
Oracle USA, Inc., Oracle America, Inc., and
Oracle International Corp.
UNITED STATES DISTRICT COURT
DISTRICT OF NEVADA
ORACLE USA, INC., a
Colorado corporation;
ORACLE AMERICA,
INC., a Delaware
corporation; and ORACLE
INTERNATIONAL
CORPORATION, a
California corporation,
Plaintiffs,
v.
RIMINI STREET, INC., a
Nevada corporation; and
SETH RAVIN, an
individual,
Defendants.

Case No. 2:10-cv-0106LRH-PAL
REPLY IN SUPPORT
OF MOTION FOR
PERMANENT
INJUNCTION
AGAINST
DEFENDANTS RIMINI
STREET, INC. AND
SETH RAVIN, FOR
DISPOSITION OF
INFRINGING COPIES,
AND FOR JUDGMENT
ON ORACLE’S UNFAIR
COMPETITION
CLAIM

70a
*

*

*

copyright infringement. Dkt. 896. Based upon the jury
instructions and the evidence presented, the finding
of no infringer’s profits only related to whether Rimini
earned a profit in so infringing. Tr. 2654:15-17 (Zorn)
(Rimini “had a net loss of 63 million” in the relevant
time period); Tr. 2758:15-2760:1 (Hampton) (“they
[Rimini] didn’t have any profit. They were negative on
net profit, so they weren’t profitable.”); Jury Instr. 32,
Dkt. 880. The jury still found the conduct to be unlawful, and copyright law and Oracle’s requested injunction seek to protect against such infringement. Compare Eldred v. Ashcroft, 537 U.S. 186, 225-26 (2003),
with Tr. 443:4-445:6 (Ravin) (planning to get the highmultiples valuation of a software company without investment).
Rimini also argues that the jury’s finding of innocent copyright infringement should thwart Oracle’s
request for an injunction. But courts can and do enter
injunctions against innocent infringers, consistent
with the plain language of the Copyright Act. See 17
U.S.C. § 405(b) (allowing a court to “enjoin the continuation of the infringing undertaking” even where an
innocent infringer was misled by the absence of a copyright notice on an authorized copy of the copyrighted
work); Jackson v. MPI Home Video, 694 F. Supp. 483,
492, 493 (N.D. Ill. 1988) (issuing a preliminary injunction against a likely innocent infringer who “evince[d]
an attitude of callous disregard toward Jackson’s copyright”). The volume of infringing copies and derivative works in this case, PF 21-28, 62, the scale of crossuse of those copies, PF 45-46, 51, 53-61, 64-65, and Rimini’s efforts to conceal its infringement, PF 52, 9095, amply demonstrate Rimini’s “callous disregard”
for Oracle’s copyright rights.

71a
The cases that Rimini cites in its Opposition do
not counsel a different result. Because Rimini continues to infringe, its current infringement is undisputedly willful rather than innocent. Rimini also cites almost entirely to discussions under the Lanham Act of
innocent trademark infringement where no harm had
been established. See In re Cir. Breaker Litig., 860 F.
Supp. 1453, 1455 (C.D. Cal. 1994) (“The Lanham Act
empowers courts to issue injunctions ‘to prevent the
violation’ of the registrant’s rights, 15 U.S.C. §
1116(a), not to punish innocent infringers.”), aff’d sub
nom. Westinghouse Elec. Corp. v. Gen. Cir. Breaker &
Elec. Supply Inc., 106 F.3d 894 (9th Cir. 1997);
Contessa Food Prods., Inc. v. Lockpur Fish Processing
Co., Nos. CV 98–8218 NM (SHx), 99–4783 NM (SHx),
2003 WL 25778704, at *7 (C.D. Cal. Jan. 29, 2003)
(quoting In re Cir. Breaker Litig.).6 These cases have
no relevance to the statutory notion of innocent infringement under the Copyright Act. When quoting
from Dolori Fabrics, Inc. v. Limited, Inc., 662 F. Supp.
1347 (S.D.N.Y. 1987), Rimini omits that the court denied injunctive relief where “an innocent infringer ...
ceased its infringement immediately upon receiving
notice” that the work was copyrighted. Dolori Fabrics,
662 F. Supp. at 1358 (emphasis added). Rimini always
had notice that Oracle’s software and support materials were copyrighted, Tr. 1546:5-20 (Screven).7 Rimini’s authorities do not counsel denial of Oracle’s
proposed injunction

6
While Contessa Food included copyright claims, Rimini
quotes only trademark-law discussions.
7
In Polygram Int’lPub., Inc. v. Nevada/TIG, Inc., 855 F. Supp.
1314 (D. Mass 1994), the “good faith” Rimini cites related to indirect liability absent direct infringement. Id. at 1323-24, 133435.

72a
Last, innocent infringement has no bearing on Oracle’s request for entry of an injunction as to Rimini’s
computer access violations, where the jury found that
Rimini’s and Ravin’s violations were knowing, willful,
and without authorization. Jury Instrs. 47, 48, 53, 54,
Dkt. 880.
5. Rimini’s Now Unbelievable Claim That It
Has Ceased Its Improper Behavior
Should Not Be Credited and Does Not
Bar Injunctive Relief.
Rimini asserts that Oracle’s request for an injunction is based entirely on past infringement and there
is no risk of future harm. Opp’n at 11, 13-14. As noted
above, Rimini’s objections that the proposed injunction would impact Rimini’s current processes belie
that assertion.
Regardless, Rimini does not address either the
case law Oracle cited that voluntarily cessation is unpersuasive evidence when considering a permanent
injunction or the facts showing that Rimini has a history of lying to the Court. “A private party’s discontinuation of unlawful conduct does not make the dispute
moot, however. An injunction remains appropriate to
ensure that the misconduct does not recur as soon as
the case ends.” Metro-Goldwyn-Mayer Studios, Inc. v.
Grokster, Ltd., 518 F. Supp. 2d 1197, 1222 (C.D. Cal.
2007) (quoting BMG Music v. Gonzalez, 430 F.3d 888,
893 (7th Cir. 2005)); see also Broadcast Music, Inc. v.
McDade & Sons, Inc., 928 F. Supp. 2d 1120, 1136 (D.
Ariz. 2013).
Further, Rimini’s supposed change in practice
only after a finding of infringement supports the inference that Rimini will continue to infringe in the absence of an injunction. Rimini makes no attempt to

73a
deny this. Grokster, 518 F. Supp. 2d at 1221 (“[S]uch
an inference is warranted
*

*

*

74a
SHOOK, HARDY & BACON LLP
B. Trent Webb (pro hac
vice)
Peter Strand (pro hac
vice)
Ryan D. Dykal (pro hac
vice)
2555 Grand Boulevard
Kansas City, MO 641082613
Telephone: (816) 4746550
Facsimile: (816) 421-5547
bwebb@shb.com
GIBSON, DUNN &
CRUTCHER LLP
Mark A. Perry (pro hac
vice)
1050 Connecticut Avenue, N.W.
Washington, DC 200365306
Telephone: (202) 9558500
mperry@gibsondunn.com
Blaine H. Evanson (pro
hac vice)
Joseph A. Gorman (pro
hac vice)
333 South Grand Avenue
Los Angeles, CA 90071

LEWIS ROCA ROTHGERBER LLP
W. West Allen (Nevada
Bar No. 5566)
3993 Howard Hughes
Parkway, Suite 600
Las Vegas, NV 89169
Telephone: (702) 9498200
wallen@lrrlaw.com
RIMINI STREET, INC.
Daniel B. Winslow (pro
hac vice)
6601 Koll Center Parkway, Suite 300
Pleasanton, CA 94566
Telephone: (925) 2647736
dwinslow@riministreet.com
John P. Reilly (pro hac
vice)
3993 Howard Hughes
Parkway, Suite 500
Las Vegas, NV 89169
Telephone: (336) 9086961
jreilly@riministreet.com

75a
Telephone: (213) 2297228
bevanson@gibsondunn.com
Attorneys for Defendants Rimini Street, Inc. and Seth
Ravin
UNITED STATES DISTRICT COURT
DISTRICT OF NEVADA
ORACLE USA, INC., a
Colorado corporation;
ORACLE AMERICA, INC., a
Delaware corporation; and
ORACLE INTERNATIONAL
CORPORATION, a
California corporation,

HEARING
REQUESTED
Case No. 2:10-cv0106-LRH-PAL

DEFENDANTS
RIMINI STREET,
v.
INC.’S AND SETH
RAVIN’S
RIMINI STREET, INC., a
OPPOSITION TO
Nevada corporation; and
ORACLE’S
SETH RAVIN, an individual, MOTION FOR A
PERMANENT
Defendants.
INJUNCTION
Plaintiffs,

*

*

*

But the jury completely rejected these arguments.
The jury unanimously concluded that Oracle suffered
zero lost profits as a result of the infringement. Oracle
ignores the jury’s verdict in arguing that “Courts find
irreparable harm even where lost profits ... may be
difficult to prove.” Dkt. 900 at 17. Here, there is no
ambiguity about what Oracle “may” prove. The jury

76a
rejected Oracle’s arguments in refusing to award any
lost profits, finding that none of Rimini’s profits were
attributable to the infringement, and concluding that
Rimini did not interfere with Oracle’s existing or prospective business relationships. Dkt. 896 at 4, 8-9.
Those factual findings “bind this Court in its consideration of equitable remedies.” Active Sports Lifestyle USA LLC v. Old Navy, LLC, 2014 WL 1246497,
at *1 (C.D. Cal. Mar. 21, 2014); GTE Sylvania Inc. v.
Cont’l T.V., Inc., 537 F.2d 980, 986 n.7 (9th Cir. 1976),
aff’d, 433 U.S. 36 (“When issues common to both legal
and equitable claims are to be tried together . . . the
findings of the jury are binding on the trier of the equitable claims”). Indeed, “the Seventh Amendment requires the trial judge to follow the jury’s implicit or
explicit factual determinations.” Los Angeles Police
Protective League v. Gates, 995 F.2d 1469, 1473 (9th
Cir. 1993) (internal quotation omitted); Bartee v.
Michelin N. Am., Inc., 374 F.3d 906, 912-13 (10th Cir.
2004) (“in fashioning equitable relief, a district court
is bound by both a jury’s explicit findings of fact and
those findings that are necessarily implicit in the
jury’s verdict”). The jury’s rejection of Oracle’s theory—that Rimini’s infringement caused Oracle to lose
profits and customers and interfered with customer
relationships causing a loss of goodwill—dooms Oracle’s instant argument that, absent an injunction, it
will lose sales, customers, and goodwill due to Rimini’s
(speculative) future conduct. See, e.g., Apple, Inc. v.
Samsung Elecs. Co., 678 F.3d 1314, 1324 (Fed. Cir.
2012) (no irreparable harm “if sales would be lost regardless of the infringing conduct”).
Oracle’s cited “evidence” also is insufficient as a
matter of law to establish harm to goodwill and

77a
amounts to little more than an argument that copyright infringement always causes irreparable harm.
See, e.g., Dkt. 900 ¶¶ 85-89. The conclusory assertion
based on hearsay by Oracle CEO Safra Catz that Rimini’s lower prices will cause customers to wonder
“whether [Oracle is] overcharging them” (id. at 17), is
rank speculation that is entirely unrelated to the
types of harms redressable under copyright law.
Goldie’s Bookstore, Inc. v. Superior Court of State of
Cal., 739 F.2d 466, 471-72
*

*

*

78a
GIBSON, DUNN &
CRUTCHER LLP
Mark A. Perry (pro hac
vice) 1050 Connecticut
Avenue, N.W.
Washington, DC 200365306
Telephone: (202) 9558500
mperry@gibsondunn.com
Blaine H. Evanson (pro
hac vice)
Joseph A. Gorman (pro
hac vice) 333 South
Grand Avenue
Los Angeles, CA 90071
Telephone: (213) 2297228
bevanson@gibsondunn.com
HOWARD & HOWARD
PLLC
W. West Allen (Nevada
Bar No. 5566) 3800
Howard Hughes Parkway, Suite 1000 Las Vegas, NV 89169 Telephone: (702) 667-4843
wallen@howardandhoward.com

RIMINI STREET, INC.
Daniel B. Winslow (pro
hac vice)
6601 Koll Center Parkway, Suite 300
Pleasanton, CA 94566
Telephone: (925) 2647736
dwinslow@riministreet.com
John P. Reilly (pro hac
vice)
3993 Howard Hughes
Parkway, Suite 500
Las Vegas, NV 89169
Telephone: (336) 9086961
jreilly@riministreet.com

79a
Attorneys for Defendants Rimini Street, Inc. and Seth
Ravin
UNITED STATES DISTRICT COURT
DISTRICT OF NEVADA
ORACLE USA, INC., a
Colorado corporation;
ORACLE AMERICA, INC., a
Delaware corporation; and
ORACLE INTERNATIONAL
CORPORATION, a California
corporation,
Plaintiffs,
v.
RIMINI STREET, INC., a
Nevada corporation; and
SETH RAVIN, an individual,

HEARING
REQUESTED
Case No. 2:10-cv0106-LRH-PAL
DEFENDANTS’
OPPOSITION
TO ORACLE’S
RENEWED
MOTION FOR A
PERMANENT
INJUNCTION

Defendants.
*

*

*

2010).
The jury rejected Oracle’s claims that Rimini and
Mr. Ravin intentionally interfered with Oracle’s current and prospective customer relationships and willfully infringed its copyrights. The jury instead found
that Rimini’s past infringement was innocent—Rimini “was not aware that its acts constituted infringement” nor did Rimini have any “reason to believe that
its acts constituted an infringement.” Ex. E at 43; Ex.
D at 6. As Rimini has contended throughout these proceedings, it would be “a major departure” from equity

80a
practice to enjoin Rimini (eBay, 547 U.S. at 391–92),
because Rimini is an adjudicated innocent infringer
(see Westinghouse Elec. Corp. v. Gen. Circuit Breaker
& Elec. Supply Inc., 106 F.3d 894, 903 (9th Cir. 1997)
(affirming denial of injunction where “defendants
were innocent infringers”)). The jury’s finding of innocent infringement constitutionally binds this Court
under the Seventh Amendment. Floyd v. Laws, 929
F.2d 1390, 1397 (9th Cir. 1991); see also Teutscher v.
Woodson, 835 F.3d 936, 944 (9th Cir. 2016).
Oracle has now had a half-dozen chances to cite
even a single case in which an adjudicated innocent
infringer was enjoined under the Copyright Act. It has
failed to do so. Oracle has cited cases involving consent injunctions (D.C. Comics Inc. v. Mini Gift Shop,
912 F.2d 29, 36 (2d Cir. 1990)), preliminary injunctions with no jury findings (Wales Indus. Inc. v.
Hasbro Bradley, Inc., 612 F. Supp. 510, 520 (S.D.N.Y.
1985); Jackson v. MPI Home Video, 694 F. Supp. 483,
492–93 (N.D. Ill. 1988)), and cases involving the inapposite proposition that a finding of willfulness is not
required to issue an injunction (Williams Elecs., Inc v.
Artic Int’l, Inc., 685 F.2d 870, 878 (3d Cir. 1982)) or to
award attorneys’ fees (Casella v. Morris, 820 F.2d 362,
366 (11th Cir. 1987)).1 Oracle resorts, once again, to
completely inapposite cases involving willful infringers. Mot. 20–21; see Walt Disney Co., 897 F.2d at 567
(noting that the “infringements were willful”); MetroGoldwyn-Mayer Studios Inc. v. Grokster, Ltd., 545

1

Oracle fails to appreciate that there is willful infringement,
and infringement, and innocent infringement. See Fitzgerald
Pub. Co. v. Baylor Pub. Co., 807 F.2d 1110, 1115 (2d Cir. 1986)
(“It is plain that ‘willfully’ infringing and ‘innocent intent’ are not
the converse of one another.”).

81a
U.S. 913, 938–39 (2005) (noting “unmistakable” evidence of “intentional facilitation of ... users’ infringement”) (emphasis added).
The “purpose of an injunction is to prevent future
violations” of the law, as those violations have been
adjudicated. United States v. W.T. Grant Co., 345 U.S.
629, 633 (1953). But when the infringer’s acts are innocent, it “will not need to be deterred from future infringements.” U.S. Dep’t of Commerce, White Paper on
Remixes, First Sale, and Statutory Damages, U.S. Patent & Trademark Office, 91 (Jan. 2016). That is because an innocent infringer will conform its conduct
once informed of the boundary inadvertently transgressed, just as Rimini did here.
Oracle’s reliance on supposed “post-injunction
misconduct” fares no better. Mot. 22. Oracle recycles
its argument that Rimini “admi[tted] that Rimini’s”
new processes “violated the terms of the [prior] injunction” by pointing out that the injunction was overbroad. Mot. 22. Oracle omits that Rimini obtained a
stay of the exact injunction Oracle now proposes in the
face of Oracle’s identical arguments. Rimini’s stay motion to the Ninth Circuit was not based on its appeal
of the hacking claims; rather, Rimini argued that (1)
an adjudicated innocent infringer never has been and
could not be enjoined consistent with eBay, (2) Oracle
had an adequate remedy at law, (3) Oracle failed to
establish a causal nexus, and (4) the injunction was
vague and overbroad. Ninth Cir. Dkt. 3-1 at 11–16.
Rimini further argued that because it had ceased its
prior infringing conduct, the injunction should be
stayed. Id. at 19. The Ninth Circuit accepted those arguments, and stayed the same injunction Oracle asks
this Court to re-enter.

82a
Oracle’s argument that “nothing” has changed
simply ignores the appeal, the Ninth Circuit’s stay order, and the Ninth Circuit ruling. The court of appeals
has clearly signaled that the injunction was defective,
and this Court should resist Oracle’s attempts to ignore the posture of this remand.
2. Oracle Has, Once Again, Failed to
Show a Causal Nexus.
Oracle refuses even to acknowledge the causal
nexus requirement, let alone attempt to satisfy it on
this record. That is because Oracle could not possibly
do so. Even assuming Oracle had suffered harm to its
goodwill and business reputation as it claims, to obtain an injunction Oracle must “present[] ... evidence
that directly ties consumer demand for [Rimini’s support services] to [Rimini’s] allegedly infringing feature,” i.e., local-hosting for PeopleSoft and future-client cross-use for JD Edwards and Siebel. Apple Inc. v.
Samsung Elecs. Co., 695 F.3d 1370, 1375 (Fed. Cir.
2012) (emphasis added). It “is not enough” for Oracle
to assert “some insubstantial connection between the
alleged harm and the infringement” to “check the
causal nexus requirement off the list.” Id. at 1375; see
also Perfect 10,
*

*

*

83a
APPENDIX G
SHOOK, HARDY &
BACON LLP
B. Trent Webb, Esq.
(pro hac vice)
Peter Strand, Esq. (pro
hac vice)
Ryan D. Dykal, Esq.
(pro hac vice)
2555 Grand Boulevard
Kansas City, MO
64108-2613
Telephone: (816) 4746550
Facsimile: (816) 4215547
bwebb@shb.com
Robert H. Reckers,
Esq. (pro hac vice)
600 Travis Street,
Suite 1600
Houston, TX 77002
Telephone: (713) 2278008
Facsimile: (713) 2279508
rreckers@shb.com
GIBSON, DUNN &
CRUTCHER LLP
Mark A. Perry (pro hac
vice)
1050 Connecticut Avenue, N.W.

LEWIS ROCA ROTHGERBER LLP
W. West Allen (Nevada
Bar No. 5566)
3993 Howard Hughes
Parkway, Suite 600
Las Vegas, NV 89169
Telephone: (702) 9498200
wallen@lrrlaw.com
RIMINI STREET, INC.
Daniel B. Winslow (pro
hac vice)
6601 Koll Center Parkway, Suite 300
Pleasanton, CA 94566
Telephone: (925) 2647736
dwinslow@riministreet.com
John P. Reilly (pro hac
vice)
3993 Howard Hughes
Parkway, Suite 500
Las Vegas, NV 89169
Telephone: (336) 9086961
jreilly@riministreet.com

84a
Washington, DC
20036-5306
Telephone: (202) 9558500
mperry@gibsondunn.com
Blaine H. Evanson (pro
hac vice)
333 South Grand Avenue
Los Angeles, CA 90071
Telephone: (213) 2297228
bevanson@gibsondunn.com
Attorneys for Defendants Rimini Street, Inc. and Seth
Ravin
UNITED STATES DISTRICT COURT
DISTRICT OF NEVADA
ORACLE USA, INC.;
and ORACLE INTERNATIONAL CORPORATION,
Plaintiffs,
v.
RIMINI STREET,
INC.; and SETH
RAVIN,
Defendants.

Case No. 2:10-cv-0106LRH-PAL
DECLARATION OF
JIM BENGE IN OPPOSITION TO ORACLE’S
MOTION FOR A PERMANENT INJUNCTION

85a

I, Jim Benge, have personal knowledge of the facts
stated below and under penalty of perjury hereby declare:
1. I am the Vice President of PeopleSoft Development at Rimini Street, Inc. (“Rimini”). I have been
in that position since February 1, 2009. I have worked
at Rimini since June 23, 2008.
2. As Vice President of PeopleSoft Development,
I oversee the delivery of enterprise software updates
to keep Rimini’s PeopleSoft clients in compliance with
evolving tax, legal, and regulatory requirements and
am familiar with Rimini’s processes for providing support services related to Oracle’s PeopleSoft software
product.
3. Rimini’s current support processes for PeopleSoft do not rely on the use of any “local” PeopleSoft
environments or documentation on Rimini’s computer
systems.
4. Rimini’s current support process does not
download or transmit onto Rimini’s computer systems
any PeopleSoft software or documentation from password-protected Oracle websites, or upload such software or documentation from any Oracle installation
media.
5. Instead of using local or cloned copies of PeopleSoft, Rimini’s current process involves remotely accessing a Rimini client’s PeopleSoft environments
that Rimini uses to service that client.
6. Certain of Rimini’s clients have elected to
store copies of PeopleSoft software or documentation
on cloud computing platforms, such as Amazon or

86a
Windstream. For those clients, Rimini’s current process involves remotely accessing the clients’ PeopleSoft software or documentation that is stored in
the cloud.
7. Rimini’s current process does not use automated tools to access or download PeopleSoft software
or documentation from password-protected Oracle
websites.
8. When Rimini downloads PeopleSoft software
or documentation from password-protected Oracle
websites for a Rimini client, the current process involves using only that client’s valid login credentials.
9. Rimini’s current process does not use one client’s PeopleSoft software or documentation to reproduce or “clone” a new environment for any other Rimini client.
10. Rimini’s current process does not reproduce
PeopleSoft software or documentation licensed to one
client from that client to any other client.
I declare under penalty of perjury under the laws of
the United States of America that the foregoing is true
and correct.
__/s/ Jim Benge_________________
Jim Benge
Executed on:

November 2, 2015
Pleasanton, California

87a
SHOOK, HARDY &
BACON LLP
B. Trent Webb, Esq.
(pro hac vice)
Peter Strand, Esq.
(pro hac vice)
Ryan D. Dykal, Esq.
(pro hac vice)
2555 Grand Boulevard
Kansas City, MO
64108-2613
Telephone: (816)
474-6550
Facsimile: (816) 4215547
bwebb@shb.com
Robert H. Reckers, Esq.
(pro hac vice)
600 Travis Street, Suite
1600
Houston, TX 77002
Telephone: (713) 2278008
Facsimile: (713) 2279508
rreckers@shb.com
GIBSON, DUNN &
CRUTCHER LLP
Mark A. Perry (pro hac
vice)
1050 Connecticut Avenue, N.W.
Washington, DC 20036-

LEWIS ROCA ROTHGERBER LLP
W. West Allen (Nevada
Bar No. 5566)
3993 Howard Hughes
Parkway, Suite 600
Las Vegas, NV 89169
Telephone: (702) 9498200
wallen@lrrlaw.com
RIMINI STREET, INC.
Daniel B. Winslow (pro
hac vice)
6601 Koll Center Parkway, Suite 300
Pleasanton, CA 94566
Telephone: (925) 2647736
dwinslow@riministreet.com
John P. Reilly (pro hac
vice)
3993 Howard Hughes
Parkway, Suite 500
Las Vegas, NV 89169
Telephone: (336) 9086961
jreilly@riministreet.com

88a
5306
Telephone: (202) 9558500
mperry@gibsondunn.com
Blaine H. Evanson (pro
hac vice)
333 South Grand Avenue
Los Angeles, CA 90071
Telephone: (213) 2297228
bevanson@gibsondunn.com
Attorneys for Defendants Rimini Street, Inc. and Seth
Ravin
UNITED STATES DISTRICT COURT
DISTRICT OF NEVADA
ORACLE USA, INC.;
and ORACLE INTERNATIONAL CORPORATION,
Plaintiffs,
v.
RIMINI STREET,
INC.; and SETH
RAVIN,
Defendants.

Case No. 2:10-cv-0106LRH-PAL
DECLARATION OF
RON TEEGARDEN IN
OPPOSITION TO ORACLE’S MOTION
FOR A PERMANENT
INJUNCTION

89a
I, Ron Teegarden, have personal knowledge of the
facts stated below and under penalty of perjury
hereby declare:
1. I am the Practice Manager of Global JD Edwards Service Delivery at Rimini Street, Inc. (“Rimini”). I have been in that position since June 1, 2013.
I have worked at Rimini since February 21, 2012.
2. As Practice Manager of Global JD Edwards
Service Delivery, I oversee delivery of, and am familiar with, Rimini’s processes for providing support services related to Oracle’s JD Edwards software product.
3. Rimini’s current support processes for JD Edwards do not rely on the use of any “local” JD Edwards
environments or documentation on Rimini’s computer
systems.
4. Rimini’s current support process does not
download or transmit onto Rimini’s computer systems
any JD Edwards software or documentation from
password-protected Oracle websites, or upload such
software or documentation from any Oracle installation media.
5. Instead of using local or cloned copies of JD
Edwards, Rimini’s current process involves remotely
accessing a Rimini client’s JD Edwards environments
that Rimini uses to service that client.
6. Certain of Rimini’s clients have elected to
store copies of JD Edwards software or documentation
on cloud computing platforms, such as Amazon or
Windstream. For those clients, Rimini’s process involves remotely accessing the clients’ JD Edwards
software or documentation that is stored in the cloud.

90a
I declare under penalty of perjury under the laws of
the United States of America that the foregoing is true
and correct.
__/s/ Ron Teegarden____________
Ron Teegarden
Executed on:

November 2, 2015
Virginia Beach, Virginia

91a
SHOOK, HARDY &
BACON LLP
B. Trent Webb, Esq.
(pro hac vice)
Peter Strand, Esq.
(pro hac vice)
Ryan D. Dykal, Esq.
(pro hac vice)
2555 Grand Boulevard
Kansas City, MO
64108-2613
Telephone: (816) 4746550
Facsimile: (816) 4215547
bwebb@shb.com
Robert H. Reckers, Esq.
(pro hac vice)
600 Travis Street, Suite
1600
Houston, TX 77002
Telephone: (713) 2278008
Facsimile: (713) 2279508
rreckers@shb.com
GIBSON, DUNN &
CRUTCHER LLP
Mark A. Perry (pro hac
vice)
1050 Connecticut Avenue, N.W.
Washington, DC 20036-

LEWIS ROCA ROTHGERBER LLP
W. West Allen (Nevada
Bar No. 5566)
3993 Howard Hughes
Parkway, Suite 600
Las Vegas, NV 89169
Telephone: (702) 9498200
wallen@lrrlaw.com
RIMINI STREET, INC.
Daniel B. Winslow (pro
hac vice)
6601 Koll Center Parkway, Suite 300
Pleasanton, CA 94566
Telephone: (925) 2647736
dwinslow@riministreet.com
John P. Reilly (pro hac
vice)
3993 Howard Hughes
Parkway, Suite 500
Las Vegas, NV 89169
Telephone: (336) 9086961
jreilly@riministreet.com

92a
5306
Telephone: (202) 9558500
mperry@gibsondunn.com
Blaine H. Evanson (pro
hac vice)
333 South Grand Avenue
Los Angeles, CA 90071
Telephone: (213) 2297228
bevanson@gibsondunn.com
Attorneys for Defendants Rimini Street, Inc. and Seth
Ravin
UNITED STATES DISTRICT COURT
DISTRICT OF NEVADA
ORACLE USA, INC.;
and ORACLE INTERNATIONAL CORPORATION,
Plaintiffs,
v.
RIMINI STREET,
INC.; and SETH
RAVIN,
Defendants.

Case No. 2:10-cv-0106LRH-PAL
DECLARATION OF
KIEN PHUNG IN OPPOSITION TO ORACLE’S MOTION FOR A
PERMANENT INJUNCTION

93a
I, Kien Phung, have personal knowledge of the
facts stated below and under penalty of perjury
hereby declare:
1. I am the Vice President of Global Siebel Service Delivery at Rimini Street, Inc. (“Rimini”). I have
been in that position since March 2013. I have worked
at Rimini since March 2008.
2. As Vice President of Global Siebel Service Delivery, I oversee delivery of, and am familiar with, Rimini’s processes for providing support services related
to Oracle’s Siebel software product.
3. Rimini’s current support processes for Siebel
do not rely on the use of any “local” Siebel environments or documentation on Rimini’s computer systems.
4. Rimini’s current support process does not
download or transmit onto Rimini’s computer systems
any Siebel software or documentation from passwordprotected Oracle websites, or upload such software or
documentation from any Oracle installation media.
5. Instead of using local or cloned copies of
Siebel, Rimini’s current process involves remotely accessing a Rimini client’s Siebel environments that Rimini uses to service that client.
6. Certain of Rimini’s clients have elected to
store copies of Siebel software or documentation on
cloud computing platforms, such as Amazon or Windstream. For those clients, Rimini’s current process involves remotely accessing the clients’ Siebel software
or documentation that is stored in the cloud.
7. Rimini’s current process does not use automated tools to access or download Siebel software or

94a
documentation from password-protected Oracle websites.
8. When Rimini downloads Siebel software or
documentation from password-protected Oracle websites for a Rimini client, Rimini’s current process involves using only that client’s valid login credentials.
9. Rimini’s current process does not use one client’s Siebel software or documentation to reproduce or
“clone” a new environment for any other Rimini client.
10. Rimini’s current process does not reproduce
Siebel software or documentation licensed to one client from that client to any other client.
I declare under penalty of perjury under the laws of
the United States of America that the foregoing is true
and correct.
__/s/ Kien Phung_______________
Kien Phung
Executed on:

November 2, 2015
Las Vegas, Nevada

95a
SHOOK, HARDY &
BACON LLP
B. Trent Webb, Esq.
(pro hac vice)
Peter Strand, Esq.
(pro hac vice)
Ryan D. Dykal, Esq.
(pro hac vice)
2555 Grand Boulevard
Kansas City, MO
64108-2613
Telephone: (816) 4746550
Facsimile: (816) 4215547
bwebb@shb.com
Robert H. Reckers, Esq.
(pro hac vice)
600 Travis Street, Suite
1600
Houston, TX 77002
Telephone: (713) 2278008
Facsimile: (713) 2279508
rreckers@shb.com
GIBSON, DUNN &
CRUTCHER LLP
Mark A. Perry (pro hac
vice)
1050 Connecticut Avenue, N.W.
Washington, DC 20036-

LEWIS ROCA ROTHGERBER LLP
W. West Allen (Nevada
Bar No. 5566)
3993 Howard Hughes
Parkway, Suite 600
Las Vegas, NV 89169
Telephone: (702) 9498200
wallen@lrrlaw.com
RIMINI STREET, INC.
Daniel B. Winslow (pro
hac vice)
6601 Koll Center Parkway, Suite 300
Pleasanton, CA 94566
Telephone: (925) 2647736
dwinslow@riministreet.com
John P. Reilly (pro hac
vice)
3993 Howard Hughes
Parkway, Suite 500
Las Vegas, NV 89169
Telephone: (336) 9086961
jreilly@riministreet.com

96a
5306
Telephone: (202) 9558500
mperry@gibsondunn.com
Blaine H. Evanson (pro
hac vice)
333 South Grand Avenue
Los Angeles, CA 90071
Telephone: (213) 2297228
bevanson@gibsondunn.com
Attorneys for Defendants Rimini Street, Inc. and Seth
Ravin
UNITED STATES DISTRICT COURT
DISTRICT OF NEVADA
ORACLE USA, INC.;
and ORACLE INTERNATIONAL CORPORATION,
Plaintiffs,
v.
RIMINI STREET,
INC.; and SETH
RAVIN,
Defendants.

Case No. 2:10-cv-0106LRH-PAL
DECLARATION OF
CRAIG MACKERETH
IN OPPOSITION TO
ORACLE’S MOTION
FOR A PERMANENT
INJUNCTION

97a
I, Craig Mackereth, have personal knowledge of
the facts stated below and under penalty of perjury
hereby declare:
1. I am the Group Vice President of Global Application Support at Rimini Street, Inc. (“Rimini”). I
have been in that position since January 1, 2014. I
have worked at Rimini since May 14, 2012.
2. As Group Vice President of Global Application
Support, I oversee the world-wide delivery of Rimini
support services for SAP and Oracle software products
and am familiar with Rimini’s processes for providing
support services related to Oracle’s Oracle Database
software product.
3. Certain Rimini clients may, but are not required to, use Oracle Database to support their other
Oracle software products, such as PeopleSoft, JD Edwards, and Siebel.
4. Rimini’s current support processes for Oracle
Database do not rely on the use of any “local” Oracle
Database environments on Rimini’s computer systems.
5. Rimini’s current support process does not
download or transmit onto Rimini’s computer systems
any Oracle software from password-protected Oracle
websites, or upload such materials from any Oracle
installation media.
6. Instead of using local or cloned copies of Oracle Database software, Rimini’s current process involves remotely accessing a Rimini client’s Oracle Database environments that Rimini uses to service that
client.

98a
7. Certain of Rimini’s clients have elected to
store copies of Oracle Database software on cloud computing platforms, such as Amazon or Windstream. For
those clients, Rimini’s current process involves remotely accessing the Oracle Database software stored
in the clients’ cloud environments.
8. Rimini’s current process does not use automated tools to access or download Oracle Database
software from password-protected Oracle websites.
9. When Rimini downloads Oracle Database
software from password-protected Oracle websites for
a Rimini client, the current process involves using
only that client’s valid login credentials.
10. Rimini’s current process does not use one client’s Oracle Database software to reproduce or “clone”
a new environment for any other Rimini client.
11. Rimini’s current process does not reproduce
Oracle Database software licensed to one client from
that client to any other clients.
I declare under penalty of perjury under the laws of
the United States of America that the foregoing is true
and correct.
__/s/ Craig Mackereth___________
Craig Mackereth
Executed on:

November 2, 2015
Hayward, California

99a
SHOOK, HARDY &
BACON LLP
B. Trent Webb, Esq.
(pro hac vice)
Peter Strand, Esq.
(pro hac vice)
Ryan D. Dykal, Esq.
(pro hac vice)
2555 Grand Boulevard
Kansas City, MO
64108-2613
Telephone: (816)
474-6550
Facsimile: (816) 4215547
bwebb@shb.com
Robert H. Reckers, Esq.
(pro hac vice)
600 Travis Street, Suite
1600
Houston, TX 77002
Telephone: (713) 2278008
Facsimile: (713) 2279508
rreckers@shb.com
GIBSON, DUNN &
CRUTCHER LLP
Mark A. Perry (pro hac
vice)
1050 Connecticut Avenue, N.W.
Washington, DC 20036-

LEWIS ROCA ROTHGERBER LLP
W. West Allen (Nevada
Bar No. 5566)
3993 Howard Hughes
Parkway, Suite 600
Las Vegas, NV 89169
Telephone: (702) 9498200
wallen@lrrlaw.com
RIMINI STREET, INC.
Daniel B. Winslow (pro
hac vice)
6601 Koll Center Parkway, Suite 300
Pleasanton, CA 94566
Telephone: (925) 2647736
dwinslow@riministreet.com
John P. Reilly (pro hac
vice)
3993 Howard Hughes
Parkway, Suite 500
Las Vegas, NV 89169
Telephone: (336) 9086961
jreilly@riministreet.com

100a
5306
Telephone: (202) 9558500
mperry@gibsondunn.com
Blaine H. Evanson (pro
hac vice)
333 South Grand Avenue
Los Angeles, CA 90071
Telephone: (213) 2297228
bevanson@gibsondunn.com
Attorneys for Defendants Rimini Street, Inc. and Seth
Ravin
UNITED STATES DISTRICT COURT
DISTRICT OF NEVADA
ORACLE USA, INC.;
and ORACLE INTERNATIONAL CORPORATION,
Plaintiffs,
v.
RIMINI STREET,
INC.; and SETH
RAVIN,
Defendants.

Case No. 2:10-cv-0106LRH-PAL
DECLARATION OF
DAVID MILLER IN
OPPOSITION TO ORACLE’S MOTION FOR A
PERMANENT INJUNCTION

101a
I, David Miller, have personal knowledge of the
facts stated below and under penalty of perjury
hereby declare:
1. 1 am the Vice President of Global Client
Onboarding at Rimini Street, Inc. (“Rimini”). I have
been in that position since January 1, 2015. I have
worked at Rimini since April 18, 2012.
2. As Vice President of Global Client Onboarding, I oversee the transition of clients from vendor to
Rimini support and am familiar with Rimini’s processes for providing support services related to Oracle’s JD Edwards software product.
3. Rimini’s current support process does not use
automated tools to access or download JD Edwards
software or documentation from password-protected
Oracle websites.
4. When Rimini downloads JD Edwards software or documentation from password-protected Oracle websites for a Rimini client, Rimini’s current process involves using only that client’s valid login credentials.
5. Rimini’s current process does not use one client’s JD Edwards software or documentation to reproduce or “clone” a new environment for any other Rimini client.
6. Rimini’s current process does not reproduce
JD Edwards software or documentation licensed to
one client from that client to any other client.

102a
I declare under penalty of perjury under the laws of
the United States of America that the foregoing is true
and correct.
__/s/ David Miller_______________
David Miller
Executed on:

November 2, 2015
Gig Harbor, Washington

103a
APPENDIX H
UNITED STATES DISTRICT COURT
DISTRICT OF NEVADA
***
------------------------------------------ORACLE USA, INC., a
Colorado corporation;
ORACLE AMERICA, INC., a
Delaware corporation; and
ORACLE INTERNATIONAL
CORPORATION, a
California corporation;
Plaintiffs,
v.
RIMINI STREET, INC., a
Nevada corporation; and
SETH RAVIN, an individual;

X
:
:

DATE FILED:
OCT 13 2015

:

2:10-CV-0106: LRH-PAL
:
: VERDICT
:
:
:
:

X
Defendants.
------------------------------------------Instructions: When answering the following questions and filling out this Verdict Form, please refer to
the Jury Instructions for guidance on the law applicable to the subject matter covered by each question.
WE THE JURY, in the above-entitled case, unanimously find as follows:

104a
INFRINGEMENT
Question 1: PeopleSoft Documentation
Has Oracle International Corporation proven by a
preponderance of the evidence that Rimini Street engaged in copyright infringement by copying copyrighted PeopleSoft documentation in a manner not
authorized by the terms of the PeopleSoft software license agreements that the Court has explained to
you?
 Yes

___ No

Question 2: J.D. Edwards Software and Documentation
Has Oracle International Corporation proven by a
preponderance of the evidence that Rimini Street engaged in copyright infringement by copying copyrighted J.D. Edwards software and documentation in
a manner not authorized by the terms of the J.D. Edwards software license agreements that the Court has
explained to you?
 Yes ___ No
Question 3: Siebel Software and Documentation
Has Oracle International Corporation proven by a
preponderance of the evidence that Rimini Street engaged in copyright infringement by copying copyrighted Siebel software and documentation in a manner not authorized by the terms of the Siebel software
license agreements that the Court has explained to
you?
 Yes ___ No

105a
Question 4: Contributory Infringement
Has Oracle International Corporation proven by a
preponderance of the evidence that defendant Seth
Ravin engaged in contributory copyright infringement
of the following Oracle International Corporation copyrighted works?
___ Yes

 No

PeopleSoft Documentation ___ Yes

 No

PeopleSoft Software

J.D. Edwards Software and Documentation
___ Yes  No
Siebel Software and Documentation
___ Yes  No
Oracle Database

___ Yes

 No

Question 5: Vicarious Infringement
Has Oracle International Corporation proven by a
preponderance of the evidence that defendant Seth
Ravin engaged in vicarious copyright infringement of
the following Oracle International Corporation copyrighted works?
___ Yes

 No

PeopleSoft Documentation ___ Yes

 No

PeopleSoft Software

J.D. Edwards Software and Documentation
___ Yes  No
Siebel Software and Documentation
___ Yes  No
Oracle Database

___ Yes

 No

106a
COPYRIGHT INFRINGEMENT DAMAGES
Question 6: Actual Damages
What do you find is the best measure of Oracle International Corporation’s actual damages for all acts
of copyright infringement engaged in by defendant Rimini Street?
Lost Profits

___

Fair Market Value License



Regardless of whether you find that Lost Profits
or a Fair Market Value License is the best measure of
actual damages in this action, please answer all three
of the following questions concerning damages: Questions 6a, 6b, and 6c. Your answer to the damages
question that you find is not the best measure of actual damages (either Lost Profits or a Fair Market
Value License) is advisory to the court only.
Question 6a: Lost Profits
What amount of Lost Profits, if any, has Oracle
International Corporation proven by a preponderance
of the evidence for all acts of copyright infringement
engaged in by defendant Rimini Street? If you found
in Questions 1 through 3 that defendant Rimini Street
did not engage in copyright infringement as to a particular copyrighted work, please do not consider that
copyrighted work in your damages amount.
Total Lost Profits:

$ 0

Question 6b: Defendant’s Profits
What amount of Rimini Street’s Profits, if any,
has Oracle International Corporation proven by a preponderance of the evidence for all acts of copyright infringement engaged in by defendant Rimini Street? If

107a
you found in Questions 1 through 3 that defendant Rimini Street did not engage in copyright infringement
as to a particular copyrighted work, please do not consider that copyrighted work in your damages amount.
Total Amount of Defendant’s Profits:

$ 0

Question 6c: Fair Market Value License
What amount do you find that Oracle International Corporation has proven by a preponderance of the evidence is the Fair Market Value
License for all of the infringed copyrighted
works? If you found in Questions 1 through 3
that defendant Rimini Street did not engage
in copyright infringement as to a particular
copyrighted work, please do not consider that
copyrighted work in your damages amount.
Total value
License:
Question 7:
ages

of

a

Fair

Market Value
$ 35,600,000

Contributory Infringement Dam-

If you found that defendant Seth Ravin engaged in contributory copyright infringement,
which portion of the actual damages award
that you awarded against Rimini Street do
you find that defendant Seth Ravin is contributori]y liable for? The actual damages award
that you should use for this question is whichever damages theory - either Lost Profits or a
Fair Market Value License - that you determined is the best measure of actual damages.
Contributory Damages Amount:

$ 0

108a
Question 8: Vicarious Infringement Damages
If you found that defendant Seth Ravin engaged in vicarious copyright infringement,
which portion of the actual damages award
that you awarded against Rimini Street do
you find that defendant Seth Ravin is vicariously liable for? The actual damages award
that you should use for this question is whichever damages theory - either Lost Profits or a
Fair Market Value License - that you determined is the best measure of actual damages.
Vicarious Damages Amount:

$ 0

STATUTORY DAMAGES
Regardless of your verdict under the section Copyright Infringement Damages above, you must determine the amount of statutory damages under the Copyright Act. To determine the amount of statutory
damages under the Copyright Act, please answer the
following questions. Please note that in response to
Questions 9 and 10, copyright infringement need not
be innocent or willful, but can simply be infringement.
Questions 9 and JO reflect your finding as to special
considerations for determining statutory damages under the Copyright Act. After deliberating. it may be
that your answers to both Questions 9 and 10 are No.
Such an answer is acceptable and contemplated under
the Copyright Act.
Question 9: Innocent Infringement
Do you find that defendant Rimini Street has
proven by a preponderance of the evidence that its infringement, if any, of the following copyrighted works

109a
was innocent as explained in the jury instruction titled Copyright Infringement - Damages - Innocent Infringement?
 Yes

___ No

PeopleSoft Documentation  Yes

___ No

PeopleSoft Software

J.D. Edwards Software and Documentation
 Yes ___ No
Siebel Software and Documentation
 Yes ___ No
Oracle Database

 Yes

___ No

If you found that defendant Rimini Street engaged
in innocent infringement as to all of the copyright infringement that it engaged in, skip Question 10. However, if you found that defendant Rimini Street did not
engage in innocent infringement as to all of the copyright infringement that it engaged in, or that it engaged in innocent infringement as to only some of the
copyright infringement that it engaged in, answer
Question 10.
Question 10: Willful Infringement
Do you find that plaintiff Oracle International
Corporation has proven by a preponderance of the evidence that defendant Rimini Street’s infringement, if
any, of the following copyrighted works was willful as
explained in the jury instruction titled Copyright Infringement - Damages - Willful Infringement?
___ Yes

 No

PeopleSoft Documentation ___ Yes

 No

PeopleSoft Software

J.D. Edwards Software and Documentation
___ Yes  No

110a
Siebel Software and Documentation
___ Yes  No
Oracle Database

___ Yes

 No

Question 11: Statutory Damages
You must now determine the amount of statutory
damages to award Oracle International Corporation
under the Copyright Act. There are 100 copyright registrations listed in your juror book. The parties have
agreed that no more than 93 copyrighted works are
eligible for statutory damages.
You may award any amount between $200 and
$150,000 for each copyrighted work infringed depending upon your findings regarding intent in the above
questions. If you found that the infringement as to a
particular copyrighted work was innocent in Question
9, then you may award between $200 and $30,000 for
each such copyrighted work. However, if you found
that the infringement as to a particular copyrighted
work was willful in Question 10, then you may award
between $750 and $150,000 for each such copyrighted
work.
The total number of copyrighted works for which
statutory damages is awarded is:
93
The total amount to be awarded for statutory
damages is:
2,790,000
Question 12: Contributory Infringement
If you found that defendant Seth Ravin engaged
in contributory copyright infringement, what portion
of the statutory damages award that you awarded
against Rimini Street do you find that defendant Seth
Ravin is contributorily liable for?
Contributory Statutory Damages Amount: $ 0

111a
Question 13: Vicarious Infringement
If you found that defendant Seth Ravin engaged
in vicarious copyright infringement, what portion of
the statutory damages award that you awarded
against Rimini Street do you find that defendant Seth
Ravia is vicariously liable for?
Vicarious Statutory Damages Amount:

$ 0

INDUCING BREACH OF CONTRACT/ INTENTIONAL INTERFERENCE
Question 14: Inducing Breach of Contract
Do you find that plaintiff Oracle America, Inc. has
proven by a preponderance of the evidence that defendant Rimini Street and/or Seth Ravin induced customers of Oracle America, Inc. to breach their contracts with Oracle America. Inc.?
Rimini Street

___ Yes

 No

Seth Ravin

___ Yes

 No

If you answered yes to either defendant, what
amount of damages did that breach of contract cause
to Oracle America, Inc.? If you did not answer yes to
the above question as to a particular defendant please
write N/A in the appropriate space provided.
Rimini Street

$ 0

Seth Ravin

$ 0

Question 15: Intentional Interference - Oracle
America, Inc.
Do you find that plaintiff Oracle America, Inc. has
proven by a preponderance of the evidence that defendant Rimini Street and/or Seth Ravin intentionally

112a
interfered with economic relationships between Oracle America, Inc. and customers that probably would
have resulted in an economic benefit to Oracle America, Inc.?
Rimini Street

___ Yes

 No

Seth Ravin

___ Yes

 No

If you answered yes to either defendant what
amount of damages did that intentional interference
cause to Oracle America, Inc.? If you did not answer
yes to the above question as to a particular defendant
please write N/A in the appropriate space provided.
Rimini Street

$ 0

Seth Ravin

$ 0

Question 16: Intentional Interference - Oracle
International Corporation
Do you find that plaintiff Oracle International
Corporation has proven by a preponderance of the evidence that defendant Rimini Street and/or Seth
Ravin intentionally interfered with economic relationships between Oracle International Corporation and
customers that probably would have resulted in an
economic benefit to Oracle International Corporation?
Rimini Street

___ Yes

 No

Seth Ravin

___ Yes

 No

If you answered yes to either defendant what
amount of damages did that intentional interference
cause to Oracle International Corporation? If you did
not answer yes to the above question as to a particular
defendant please write N/A in the appropriate space
provided.

113a
Rimini Street

$ 0

Seth Ravin

$ 0

COMPUTER ACCESS CLAIMS
Question 17: California Computer Data Access
and Fraud Act - Oracle America, Inc.
Do you find that Oracle America, Inc. has proven
by a preponderance of the evidence that defendant Rimini Street and/or Seth Ravin violated the California
Computer Data Access and Fraud Act as explained in
the jury instructions?
Rimini Street

 Yes

___ No

Seth Ravin

 Yes

___ No

If you answered yes to either defendant what
amount of damages did that violation of the California
Computer Data Access and Fraud Act cause to Oracle
America, Inc.? If you did not answer yes to the above
question as to a particular defendant please write N/A
in the appropriate space provided.
Rimini Street

$ 8,827,000

Seth Ravin

$ 8,827,000

Question 18: California Computer Data Access
and Fraud Act - Oracle International Corporation
Do you find that plaintiff Oracle International
Corporation has proven by a preponderance of the evidence that defendant Rimini Street and/or Seth
Ravin violated the California Computer Data Access
and Fraud Act as explained in the jury instructions?
Rimini Street

 Yes

___ No

Seth Ravin

 Yes

___ No

114a
If you answered yes to either defendant what
amount of damages did that violation of the California
Computer Data Access and Fraud Act cause to Oracle
International Corporation? If you did not answer yes
to the above question as to a particular defendant
please write N/A in the appropriate space provided.
Rimini Street

$ 5,600,000

Seth Ravin

$ 5,600,000

Question 19: Nevada Computer Crimes Law Oracle America, Inc.
Do you find that Oracle America, Inc. has proven
by a preponderance of the evidence that defendant Rimini Street and/or Seth Ravin violated the Nevada
Computer Crimes Law as explained in the jury instructions?
Rimini Street

 Yes

___ No

Seth Ravin

 Yes

___ No

If you answered yes to either defendant what
amount of damages did that violation of the Nevada
Computer Crimes Law cause to Oracle America. Inc.?
If you did not answer yes to the above question as to a
particular defendant please write N/A in the appropriate space provided.
Rimini Street

$ 8,827,000

Seth Ravin

$ 8,827,000

Question 20: Nevada Computer Crimes Law Oracle International Corporation
Do you find that plaintiff Oracle International
Corporation has proven by a preponderance of the evidence that defendant Rimini Street and/or Seth

115a
Ravin violated the Nevada Computer Crimes Law as
explained in the jury instructions?
Rimini Street

 Yes

___ No

Seth Ravin

 Yes

___ No

If you answered yes to either defendant what
amount of damages did that violation of the Nevada
Computer Crimes Law cause to Oracle International
Corporation? If you did not answer yes to the above
question as to a particular defendant please write N/A
in the appropriate space provided.
Rimini Street

$ 5,600,000

Seth Ravin

$ 5,600,000

NON-DUPLICATIVE DAMAGES
Question 21: Non-Duplicative Damages - Oracle
America, Inc.
If you found that Oracle America, Inc. suffered
damages as a result of defendant Rimini Street and/or
Seth Ravin’s conduct you must now determine the total amount of damages that is not duplicative of any
other damages award in your verdict as explained in
the jury instruction titled Verdict Form - Duplicative
Damages. In determining this amount, you should exclude the amount awarded for Statutory Damages as
well as the amount awarded, if any, for whichever
damages theory you determined was not the best
measure of actual damages for copyright infringement
(either Lost Profits or a Fair Market Value License).
The total amount of non-duplicative damages to be
awarded to Oracle America, Inc. against each defendant is as follows:

116a
Rimini Street

$ 8,827,000

Seth Ravin

$ 8,827,000

Question 22: Non-Duplicative Damages - Oracle
International Corporation
If you found that Oracle International Corporation suffered damages as a result of defendant Rimini
Street and/or Seth Ravin’s conduct you must now determine the total amount of damages that is not duplicative of any other damages award in your verdict
as explained in the jury instruction titled Verdict
Form - Duplicative Damages. In determining this
amount, you should exclude the amount awarded for
Statutory Damages as well as the amount awarded, if
any, for whichever damages theory you determined
was not the best measure of actual damages for copyright infringement (either Lost Profits or a Fair Market Value License). The total amount of non-duplicative damages to be awarded to Oracle International
Corporation against each defendant is as follows:
Rimini Street

$ 41,200,000

Seth Ravin

$

5,600,000

PUNITIVE DAMAGES
If you found that Oracle America, Inc. and/or Oracle International Corporation has proven by a preponderance of the evidence that defendant Rimini
Street is liable for intentional interference with prospective economic advantage (Questions 15 and 16),
violating the California Computer Data Access and
Fraud Act (Questions 17 and 18), or violating the Nevada Computer Crimes Law (Questions 19 and 20)
please answer the following question.

117a
Question 25: Punitive Damages - Rimini Street
Has Oracle America, Inc. and/or Oracle International Corporation proven by clear and convincing evidence that defendant Rimini Street engaged in malice, oppression, or fraud such that punitive damages
against this defendant is warranted?
___ Yes

 No

If you found that Oracle America. Inc. and/or Oracle International Corporation has proven by a preponderance of the evidence that defendant Seth Ravin
is liable for intentional interference with prospective
economic advantage (Questions 15 and 16), violating
the California Computer Data Access and Fraud Act
(Questions 17 and 18), or violating the Nevada Computer Crimes Law (Questions 19 and 20) please answer the following question.
Question 26: Punitive Damages - Seth Ravin
Has Oracle America, Inc. and/or Oracle International Corporation proven by clear and convincing evidence that defendant Seth Ravin engaged in malice,
oppression, or fraud such that punitive damages
against this defendant is warranted?
___ Yes

 No

You have now completed the Verdict Form. Have
your foreperson date and sign the form below. Then,
inform the court security officer that you have reached
a unanimous verdict. Do not give the envelope to the
bailiff. Your foreperson should retain possession of the
Verdict Form until it is requested by the judge when
the court reconvenes.

118a
Dated this 13 day of October, 2015
JURY FOREPERSON

119a
APPENDIX I
Copyright Infringement - Damages - Innocent
Infringement
An infringement is considered innocent when the
Defendant has proved both of the following elements
by a preponderance of the evidence:
1. the Defendant was not aware that its acts
constituted infringement of the copyright;
and
2. the Defendant had no reason to believe that
its acts constituted an infringement of the
copyright.
JURY INSTRUCTION NO. __35__
Copyright Infringement - Damages - Willful Infringement
An infringement is considered willful when the
plaintiff has proved both of the following elements by
a preponderance of the evidence:
1. the Defendant engaged in acts that infringed the copyright; and
2. the Defendant knew that those acts infringed the copyright.
JURY INSTRUCTION NO. __36__

120a
APPENDIX J
UNITED STATES DISTRICT COURT
DISTRICT OF NEVADA
BEFORE THE HONORABLE LARRY R. HICKS,
DISTRICT JUDGE
ORACLE USA, INC., a
Colorado corporation;
ORACLE AMERICA, INC., a
Delaware corporation; and
ORACLE INTERNATIONAL
CORPORATION, a California
corporation,

No. 2:10-cv-0106LRH-PAL

Plaintiffs,
vs.
RIMINI STREET, INC., A
NEVADA CORPORATION; AND
SETH RAVIN, AN INDIVIDUAL,
Defendants.
TRANSCRIPT OF JURY TRIAL - DAY 4
(Pages 492 through 740)
September 17, 2015
Las Vegas, Nevada
Court Reporter:

Donna Davidson, RDR, CRR, CCR
318
Certified Realtime Reporter
400 South Virginia Street
Reno, Nevada 89501
(775) 329-0132

121a
*

*

*

well.
Q. Mr. Ravin, you have -- you know, of course,
that Oracle alleges that Rimini Street has willfully infringed their copyrights?
A. Yes.
Q. Are they correct in that regard?
A. No.
MR. ISAACSON: Objection, Your Honor,
calls for a legal conclusion.
THE COURT: It is such a broad question,
I’m going to strike the question. The objection’s sustained. BY MR. WEBB:
Q. All right. Mr. Ravin, did you personally intentionally try to violate any of Oracle’s rights?
A. No.
Q. What makes you say that?
A. Well, I think that if you look at all the steps
we took to respect intellectual property, the number
of discussions we had trying to figure out what the
right thing to do was, what we felt was the right thing,
we took a great amount of steps to do things in a -- I
would call it the -- not necessarily the most efficient
way but the way that we felt was the legal, right way
to do it.
Q. What role, if any, in your belief, did the contracts between Oracle and its customers come into
play?
A. A great deal.
Q. And explain what you mean by that?

122a
A. Well, that the contracts have in them the
right for a third party to help with a customer who
asks for assistance from a third party.
These are very large systems, and they hire
many people to work on them, and we were just one of
them.
Q. And, again, what is the basis, in your belief,
for Rimini Street to operate in its capacity as a thirdparty maintenance provider?
A. Well, three things. I mean, one, the customer’s right to choose who does their maintenance
work. They could, again, choose to do it themselves,
continue to pay Oracle, use Rimini Street, switch to
another software product. So that was fundamental
number one.
Number two, the fact that third parties
have the right to work on these systems when asked
for by the customer.
You know, and, three, you know, believing
that we stand in the customer’s shoes, that when a
customer has license rights and they hire an independent, someone to work on their behalf, that we
have the right to carry out those tasks on behalf of the
customer.
MR. ISAACSON: Is the PT or DT? No objection, Your Honor.
MR. WEBB: Your Honor, at this time I
would admit PTX 3726.
THE COURT: It’s admitted.
(Plaintiffs’ Exhibit 3726 received into evidence.)
BY MR. WEBB:

123a
Q. Mr. Ravin, I’m going to pull up on the screen
PTX 3726.
THE COURT:
Actually, I’m thinking,
Counsel, we’re due probably for a morning break, ladies and gentlemen.
So what we’ll do is take a short morning
break at this time. It will probably be anywhere from
10 to 15 minutes or thereabout, depending on when
the jury is ready to come back into the courtroom.
And, ladies and gentlemen, of course, the
admonishments continue. And we’ll take a break and
reconvene in a little bit. Thank you.
COURTROOM ADMINISTRATOR: Please
rise.
THE COURT: You may step down.
(Recess from 10:04 a.m. until 10:25 a.m.)
(Jurors enter courtroom at 10:25 a.m.)
COURTROOM ADMINISTRATOR: Court
is again in session.
THE COURT:

All right.

Have a seat,

please.
The record will show we’re in open court.
The parties and counsel are present. The jury is all
present.
And, Mr. Webb, you may resume your
cross-examination of Mr. Ravin.
MR. WEBB: Thank you, Your Honor.
BY MR. WEBB:
Q. Mr. Ravin, did there come a time that you
ever worked at PeopleSoft?

124a
A. Yes.
Q. When was that?
A. I started in 1996 and ended in 2001.
Q. When you were at PeopleSoft, did you have
occasion to see contracts between PeopleSoft and its
customers?
A. Yes.
Q. Describe for the jury how frequently you
would actually see those contracts.
A. I would interact with those contracts pretty
much every day.
Q. And as a result of your interaction and
knowledge of these contracts, did you have a good feel
as to what some of the standards terms would be?
A. Yes.
Q. In front of you, you have a contract entered
into in 19 -- I’m sorry -- 98 between PeopleSoft and
Brazoria County. Do you see that?
A. Yes, but I can’t read the screen.
MR. WEBB: That makes two of us. All
right. That’s better. Marie, can we go to 14.2?
COURTROOM ADMINISTRATOR: Is this
that exhibit?
MR. WEBB: This is the one we just entered, I’m sorry, 3726.
THE COURT: Do you have it listed as admitted, Dionna?
COURTROOM ADMINISTRATOR: Yes, I
do, Your Honor.

125a
THE COURT: Yes. All right. Fine.
MR. WEBB: I apologize.
BY MR. WEBB:
Q. All right. Mr. Ravin, I want you to focus in at
14.2 of this agreement between PeopleSoft and Brazoria County, Texas.
Look in 14.2 about five lines down where it
says licensee may. Do you see that?
A. Yes.
Q. Let’s just go down -- read starting with “licensee may.”
A. “Licensee may provide access to and use of the
software only to those third parties that: (i) provide
services to licensee concerning licensee’s use of the
software; (ii) have a need to use and access the software; and (iii) have agreed to substantially similar
nondisclosure obligations imposed by licensee as those
contained herein.”
Q. All right. Now, how often did you see this
term in the agreements that you saw at PeopleSoft
while you were there?
A. I think this is a pretty standard term.
Q. Did you see agreements where it wasn’t a part
of the agreement?
A. Not that I remember.
Q. All right. Now, in connection with Rimini
Street’s business, do you provide services to your clients regarding their use of the software?
A. Yes.

126a
Q. And do they have a need -- I’m sorry, do you
have a need to use and access that same software?
A. Yes, to provide services, yes.
Q. And in connection with your contract with
your client, does Rimini Street agree to conditions of
confidentiality when working on that software?
A. Yes, in every contract.
Q. Okay. Do you remember yesterday when Mr.
Isaacson was asking you questions about a Brazoria
County District Attorney and e-mails you were exchanging?
A. Yes.
MR. WEBB: Can we please pull up PTX
498. It’s been previously admitted.
THE WITNESS: That’s not in my notebook.
MR. WEBB: I will pull it up on the screen
for you.
COURTROOM ADMINISTRATOR: 498?
MR. WEBB: 498. PTX. P as in Paul TX.
COURTROOM ADMINISTRATOR: I don’t
have 498 previously admitted. Was it in the stipulation?
MR. WEBB: I believe so. Mr. Isaacson used
it yesterday, maybe a different number. We have two
numbers in the same exhibit.
In any event, at this time I’d offer into evidence PTX 498.
MR. ISAACSON: Yeah, I used a different
version of this, but no objection.

127a
THE COURT: It’s admitted.
(Plaintiffs’ Exhibit 498 received into evidence.)
BY MR. WEBB:
Q. Okay. Now, Mr. Ravin, I want to focus on this
e-mail for a minute. Do you recall sending this to Rich
Hughes? I’m sorry. Do you recall sending this to Mr.
Hughes?
A. Yes.
Q. And he, in turn, was going to forward this on
to the Brazoria County attorney.
A. That’s my understanding, yes.
MR. WEBB: Okay. I want to focus down a
little bit farther to the bottom of the first page, “starting today.”
The very last line, Marie.
Yeah, let’s look at this paragraph. The last
sentence, if you could, Marie. And then let’s go on to
the next paragraph.
BY MR. WEBB:
Q. In this e-mail you state,
“Today, licensees can choose from amongst
a near limitless number of outsourcers such as AT&T,
IBM, EDS, Accenture, and a host of offshore providers
and smaller players as well.”
Do you see that?
A. Yes.
Q. What were you referring to at that time?

128a
A. Well, we, again, were just one of many, many
companies that needed to have access to the software
to do the work that we did.
And we’re talking about all these folks need
to build environments, they need to use the software.
Many of them have -- any outsourcer has copies of the
software, hosting providers have copies of the software, and we just were requiring to work with the
software the same as all these other companies.
Q. And how did that inform your belief as to
whether or not Rimini Street could operate its business?
A. Well, this, plus what we just looked at in
terms of the rights of third parties to be able to work
with software at the customer’s request, we saw that
we had no different rights or needs than any of these
other providers that do this every day.
Q. Okay. Let’s go to the next paragraph.
Now, you’re referring to the contract between Brazoria County and Oracle, the one we just
looked at, and it looks to me like you’re discussing it
with the client.
It says, “Given the above operating facts,
the interpretation of sections 2.1 and 4.2 of the agreement can be consistently interpreted over the years to
define usage of the software outside the scope of personal usage of the client in a way that deprives the
software vendor from license fees for new clients due
to software piracy or using one copy of the software to
serve multiple other clients.”
Do you see that?
A. Yes.

129a
Q. What were you trying to get across with that
statement?
A. That the license terms are designed to make
sure that third parties can work on behalf of a customer, but they can’t take the software and use it to
run their own operations.
We couldn’t take a customer’s license of the
payroll product and use it to process Rimini Street
payroll.
Q. Mr. Ravin, do you know who -- which software
providers Rimini Street actually uses in its own business?
A. Yeah, we use Microsoft.
Q. You use Microsoft instead of Oracle?
A. Correct.
Q. So you don’t use Oracle products for your own
business operations?
A. No. We only used one that was acquired by
Oracle at some point, and we switched off that to another vendor.
Q. So when you obtain software from clients, you
aren’t actually using it for your own business?
A. Not at all.
Q. And was this -- did this concern get raised occasionally by clients as to whether or not this provision would prevent you from doing your job?
A. Yes, several times.
Q. And how would you explain the resolution of
that?

130a
A. Just as I did here to the district attorney in
Texas, yes.
Q. Okay. Let’s go down to the next paragraph.
It says, “Likewise, section 14.2 merely
seeks to assure that the licensed software is protected
by assuring that it is not provided to parties without
proper authorization and the same level of guaranteed
confidentiality to protect the” access.
All right. I’m sorry, “asset.”
Is that relating to the confidentiality provision that we just discussed, Mr. Ravin?
A. Yeah, this is just saying that we’re looking to
make sure in the rights of the third party to do work
on behalf of the customer that they’re not taking the
software and giving it away to other people who could
then get it without actually paying Oracle for a license.
Q. And did you ever provide software -- has Rimini Street ever provided software to someone who
had not already paid Oracle for the license?
A. No.
Q. And let’s take a step back here. We’re using
the word “always” and “never” a lot. Is Rimini Street
perfect?
A. No. Clearly, we’ve made mistakes as we’ve already seen here in the Court.
Q. Can you rule out the possibility that sometime
someone received a file they weren’t legally entitled
to?
*

*

*

131a
UNITED STATES DISTRICT COURT
DISTRICT OF NEVADA
BEFORE THE HONORABLE LARRY R. HICKS,
DISTRICT JUDGE
ORACLE USA, INC., a
Colorado corporation;
ORACLE AMERICA, INC., a
Delaware corporation; and
ORACLE INTERNATIONAL
CORPORATION, a California
corporation,

No. 2:10-cv-0106LRH-PAL

Plaintiffs,
vs.
RIMINI STREET, INC., A
NEVADA CORPORATION; AND
SETH RAVIN, AN INDIVIDUAL,
Defendants.
TRANSCRIPT OF JURY TRIAL - DAY 17
(Pages 3338 through 3641)
October 6, 2015
Las Vegas, Nevada
Court Reporter:

Donna Davidson, RDR, CRR, CCR
318
Certified Realtime Reporter
400 South Virginia Street
Reno, Nevada 89501
(775) 329-0132

132a
*

*

*

and Rimini Street convince you of things that you
know is not true based on the evidence that you have
seen with your own eyes.
I expect that during counsel’s closing, after I sit
down and Bill sit down, you are going to hear new
things you have never heard before, that there will be
no evidence for in this entire case. And when you hear
these things, you ask yourself, have I ever heard anything like this before? Is there any evidence to back
this up? Or are they just trying to put another one
over on me?
All right. So the last thing that I’ll talk to you
about, ladies and gentlemen, is what Rimini and Seth
Ravin knew. And this has to do with willfulness and
with punitive damages.
So here’s the instruction for willfulness. And all
that this means is that the defendant engaged in acts
that infringed the copyright and that they knew that
those acts engaged the copyright.
Punitive damages. The judge walked you through
this a little bit. And basically this means that the defendant engaged with fraud, oppression, or malice.
Fraud includes intentional misrepresentation, deception, or concealment of a material fact.
And also relevant to punitive damages is something called conscious disregard. That means that
knowledge of -- if you have knowledge of a probable
harmful consequence of a wrongful act but you deliberately fail to avoid the consequences.
So the questions are did they know; and was it intentional?

133a
Ladies and gentlemen, of course, they did, and, of
course, it was.
First of all, customers warned Rimini Street that
what they were doing was illegal. Here’s a list of customers saying that what Rimini would do would violate Oracle’s copyright agreements.
This one person says that this is pretty much boilerplate verbiage in the Oracle contract.
So many customers told them that what they were
doing was illegal. So what did Seth Ravin say?
So he first said, “Well, I would interact with those
contracts pretty much every day.”
But he also said, “Well, the customers signed the
contracts, and we didn’t have access to that information.”
Then he said, “It was the customer’s responsibility
to make sure their license wasn’t violated. It was the
customer’s liability.’
But then he also said, “We would influence the
customers. We would give them our opinion.”
*

*

*

134a
APPENDIX K
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
U.S. Const. Amend. VII
In Suits at common law, where the value in controversy shall exceed twenty dollars, the right of trial by
jury shall be preserved, and no fact tried by a jury,
shall be otherwise reexamined in any Court of the
United States, than according to the rules of the common law.
*

*

*

17 U.S.C. § 405. Remedies for infringement: Injunctions
(a) EFFECT OF OMISSION ON COPYRIGHT.—With respect to copies and phonorecords publicly distributed
by authority of the copyright owner before the effective date of the Berne Convention Implementation Act
of 1988, the omission of the copyright notice described
in sections 401 through 403 from copies or
phonorecords publicly distributed by authority of the
copyright owner does not invalidate the copyright in a
work if—
(1) the notice has been omitted from no more
than a relatively small number of copies or
phonorecords distributed to the public; or
(2) registration for the work has been made
before or is made within five years after the publication without notice, and a reasonable effort is
made to add notice to all copies or phonorecords

135a
that are distributed to the public in the United
States after the omission has been discovered; or
(3) the notice has been omitted in violation of
an express requirement in writing that, as a condition of the copyright owner’s authorization of the
public distribution of copies or phonorecords, they
bear the prescribed notice.
(b) EFFECT OF
ERS.—Any person

OMISSION ON INNOCENT INFRINGwho innocently infringes a copyright, in reliance upon an authorized copy or
phonorecord from which the copyright notice has been
omitted and which was publicly distributed by authority of the copyright owner before the effective date of
the Berne Convention Implementation Act of 1988, incurs no liability for actual or statutory damages under
section 504 for any infringing acts committed before
receiving actual notice that registration for the work
has been made under section 408, if such person
proves that he or she was misled by the omission of
notice. In a suit for infringement in such a case the
court may allow or disallow recovery of any of the infringer’s profits attributable to the infringement, and
may enjoin the continuation of the infringing undertaking or may require, as a condition for permitting
the continuation of the infringing undertaking, that
the infringer pay the copyright owner a reasonable license fee in an amount and on terms fixed by the
court.
(c) REMOVAL OF NOTICE.—Protection under this title is not affected by the removal, destruction, or obliteration of the notice, without the authorization of the
copyright owner, from any publicly distributed copies
or phonorecords.
*

*

*

136a
17 U.S.C. § 502. Remedies for infringement: Injunctions
(a) Any court having jurisdiction of a civil action
arising under this title may, subject to the provisions
of section 1498 of title 28, grant temporary and final
injunctions on such terms as it may deem reasonable
to prevent or restrain infringement of a copyright.
(b) Any such injunction may be served anywhere
in the United States on the person enjoined; it shall
be operative throughout the United States and shall
be enforceable, by proceedings in contempt or otherwise, by any United States court having jurisdiction
of that person. The clerk of the court granting the injunction shall, when requested by any other court in
which enforcement of the injunction is sought, transmit promptly to the other court a certified copy of all
the papers in the case on file in such clerk’s office.
*

*

*

17 U.S.C. § 504. Remedies for infringement: Injunctions
(a) IN GENERAL.—Except as otherwise provided by
this title, an infringer of copyright is liable for either—
(1) the copyright owner’s actual damages and
any additional profits of the infringer, as provided
by subsection (b); or
(2) statutory damages, as provided by subsection (c).
(b) ACTUAL DAMAGES AND PROFITS.—The copyright owner is entitled to recover the actual damages
suffered by him or her as a result of the infringement,
and any profits of the infringer that are attributable
to the infringement and are not taken into account in

137a
computing the actual damages. In establishing the infringer’s profits, the copyright owner is required to
present proof only of the infringer’s gross revenue, and
the infringer is required to prove his or her deductible
expenses and the elements of profit attributable to
factors other than the copyrighted work.
(c) STATUTORY DAMAGES.—
(1) Except as provided by clause (2) of this
subsection, the copyright owner may elect, at any
time before final judgment is rendered, to recover,
instead of actual damages and profits, an award
of statutory damages for all infringements involved in the action, with respect to any one work,
for which any one infringer is liable individually,
or for which any two or more infringers are liable
jointly and severally, in a sum of not less than
$750 or more than $30,000 as the court considers
just. For the purposes of this subsection, all the
parts of a compilation or derivative work constitute one work.
(2) In a case where the copyright owner sustains the burden of proving, and the court finds,
that infringement was committed willfully, the
court in its discretion may increase the award of
statutory damages to a sum of not more than
$150,000. In a case where the infringer sustains
the burden of proving, and the court finds, that
such infringer was not aware and had no reason
to believe that his or her acts constituted an infringement of copyright, the court in its discretion
may reduce the award of statutory damages to a
sum of not less than $200. The court shall remit
statutory damages in any case where an infringer
believed and had reasonable grounds for believing
that his or her use of the copyrighted work was a

138a
fair use under section 107, if the infringer was: (i)
an employee or agent of a nonprofit educational
institution, library, or archives acting within the
scope of his or her employment who, or such institution, library, or archives itself, which infringed
by reproducing the work in copies or
phonorecords; or (ii) a public broadcasting entity
which or a person who, as a regular part of the
nonprofit activities of a public broadcasting entity
(as defined in section 118(f)) infringed by performing a published nondramatic literary work or by
reproducing a transmission program embodying a
performance of such a work.
(3)(A) In a case of infringement, it shall be a
rebuttable presumption that the infringement
was committed willfully for purposes of determining relief if the violator, or a person acting in concert with the violator, knowingly provided or
knowingly caused to be provided materially false
contact information to a domain name registrar,
domain name registry, or other domain name registration authority in registering, maintaining, or
renewing a domain name used in connection with
the infringement.
(B) Nothing in this paragraph limits what
may be considered willful infringement under this
subsection.
(C) For purposes of this paragraph, the term
“domain name” has the meaning given that term
in section 45 of the Act entitled “An Act to provide
for the registration and protection of trademarks
used in commerce, to carry out the provisions of
certain international conventions, and for other

139a
purposes” approved July 5, 1946 (commonly referred to as the “Trademark Act of 1946”; 15
U.S.C. 1127).
(d) ADDITIONAL DAMAGES IN CERTAIN CASES.—In
any case in which the court finds that a defendant proprietor of an establishment who claims as a defense
that its activities were exempt under section 110(5)
did not have reasonable grounds to believe that its use
of a copyrighted work was exempt under such section,
the plaintiff shall be entitled to, in addition to any
award of damages under this section, an additional
award of two times the amount of the license fee that
the proprietor of the establishment concerned should
have paid the plaintiff for such use during the preceding period of up to 3 years.
*

*

*

